<html>
<title> - VENEZUELA AT A CROSSROADS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                       VENEZUELA AT A CROSSROADS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 13, 2019

                               __________

                            Serial No. 116-4

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


    Available:<bullet>Ahttp://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-362PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e495e416e4d5b5d5a464b425e004d414300">[email&#160;protected]</a>                                     
                       
                       
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia	     STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California	             LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York	     BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota		     JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas    		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania	     GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas
                              

               Jason Steinbaum, Democratic Staff Director

               Brendan Shields, Republican Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Abrams, Hon. Elliott, U.S. Special Representative for Venezuela, 
  U.S. Department of State.......................................    13
Oudkirk, Sandra, Deputy Assistant Secretary, Bureau of Energy 
  Resources, U.S. Department of State............................    20
Olive, Steve, Acting Assistant Administrator, Bureau of Latin 
  America and the Caribbean, U.S. Agency for International 
  Development....................................................    25

                                APPENDIX

Hearing Notice...................................................    68
Hearing Minutes..................................................    69
Hearing Attendance...............................................    70

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Amensty International letter submitted by Chairman Engel.........    71
Article from The Wall Street Journal submitted by Representative 
  Smith..........................................................    78

           QUESTIONS SUBMITTED FOR THE RECORD WITH RESPONSES

Chairman Eliot L. Engel..........................................    83
Representative Chris Smith.......................................    85
Representative David Cicilline...................................    86
Representative James Sensenbrenner...............................    89
Representative Michael Guest.....................................    90

 
                       VENEZUELA AT A CROSSROADS

                      Wednesday, February 13, 2019

                          House of Representatives,
                      Committee on Foreign Affairs,
                                                     Washington, DC

    The committee met, pursuant to notice, at 11:09 a.m., in 
Room 2172, Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel [presiding]. The committee will come to 
order.
    As the situation in Venezuela continues to unfold, it is 
important that the Foreign Affairs Committee hear from 
policymakers in the Trump administration on the latest 
developments and how the United States will continue to engage 
on this issue. So, I am glad to welcome our panel, whom I will 
introduce prior to their statements.
    And let me also welcome all our members, the public, and 
the press, and we are glad to have our friends from C-SPAN here 
this morning to cover our hearing.
    Before we start, without objection, all members may have 5 
days to submit statements, questions, and extraneous materials 
for the record, subject to the length limitation in the rules.
    Chairman Engel. Let me start by saying that the 
humanitarian crisis in Venezuela is simply heartbreaking. 
Ninety percent of Venezuelans are living in poverty, more than 
1 in 10 children suffer from malnutrition, and nearly 10 
percent of the country's population of 31 million has fled 
overseas. What makes it even more heartbreaking is that this 
crisis is entirely manmade. Venezuela should be one of the 
wealthiest and most prosperous countries in the hemisphere; it 
once was. But the corruption, incompetence, and mismanagement 
of Nicolas Maduro, and Hugo Chavez before him, have driven that 
country off of the edge of a cliff. The blame lies squarely 
with the crooked officials who have repressed the Venezuelan 
people for years, doing everything from throwing political 
opponents in jail to rigging elections, to gunning down 
protesters in the street.
    Now some consider it a good sound bite to say that 
Venezuela represents the failure of socialism, but we should be 
honest that Venezuela is not a socialist country. It is a 
kleptocracy. It is a cruel and oppressive regime, pocketing 
every dollar it can, even if it means that the country's people 
are literally starving to death.
    Nowhere is Nicolas Maduro's disregard for his fellow 
Venezuelans clearer than his decision to block humanitarian aid 
from entering the country last week at the Colombia-Venezuela 
border. This was a disgrace, and we need to keep looking for 
ways to get this assistance to those who need it without 
provoking a confrontation that could lead to the loss of life. 
The Venezuelan people deserve better. They deserve the future 
they choose for themselves and their country.
    So, our question is, how do we help them attain that 
future? How do we stand with the people of Venezuela as they 
seek a peaceful democratic transition?
    First, governments around the world, and especially here in 
our neighborhood, need to support the Venezuelan National 
Assembly and Juan Guaido<greek-e> they work toward free and 
fair elections, elections that must be monitored by credible 
international observers, including the OAS, the Organization of 
American States. The EU-Latin America contact group can play a 
potentially crucial role in laying the groundwork for these 
elections in an area where our own administration can provide 
financial and political support.
    What about U.S. policy more broadly? I will credit the 
administration. In the last few weeks, we have seen good 
multilateral engagement to grapple with this crisis. I am glad 
the White House rejects Nicolas Maduro. I think we should 
reject authoritarians, regardless of the ideology, and that 
would include despots like Vladimir Putin and Kim Jong Un.
    But I do worry about the President's saber rattling, his 
hints that the U.S. military intervention remains an option. I 
want to make clear to our witnesses, and to everyone else 
watching, U.S. military intervention is not an option. Congress 
decides when, where, and how the U.S. military is used around 
the world, and Congress would not support military intervention 
in Venezuela.
    Venezuela's neighbors feel the same way. Just last week, 
Colombia's Deputy Foreign Minister said that, and I quote him, 
``In no way would the Colombian government permit or agree with 
any type of military intervention,'' unquote, in Venezuela.
    With respect to new sanctions on the PDVSA, I appreciate 
the need to squeeze Maduro, but the White House must think 
through the potential repercussions that these sanctions could 
have on the Venezuelan people if Maduro does not leave office 
in the coming weeks. We need to continually evaluate their 
effectiveness.
    My biggest concern about the administration's policy is 
what appears to be missing. What are we going to do about the 
more than 3 million Venezuelans who have already left the 
country? This has become Latin America's biggest migration 
crisis in recent history, and I fear the United States may make 
things worse.
    For starters, we should be taking in more Venezuelan 
refugees, but our admission numbers are at their lowest in 
recent history. Worse, the immigration policies of the White 
House have resulted in more Venezuelans being deported back to 
Venezuela, and that is like sending people back into a burning 
building.
    The President could fix that with the stroke of a pen. He 
could grant temporary protected status, or TPS, to Venezuelans 
living in the United States. I hope he does so. And I have also 
cosponsored a bill written by Representative Soto that would 
take this step.
    There is more we can do legislatively. Mr. McCaul and I 
have spent the last 2 weeks trying to draft a bipartisan 
resolution on this matter. We were about 95 percent of the way 
there, but hit a roadblock, similar to the Senate, on how to 
deal with questions about the use of force in Venezuela. This 
is a policy difference, and it is a debate worth having, 
including during this hearing.
    We also have pending a few substantive bills introduced by 
Representatives Mucarsel-Powell, Shalala, and Wasserman 
Schultz, that would help alleviate the humanitarian crisis and 
dial up pressure on Maduro. I hope we are able to move them 
forward during our next markup.
    For now, I am eager to hear from our witnesses to get a 
fuller picture of the administration's approach to this 
volatile situation. But, first, let me yield to my friend, our 
ranking minority member, Mr. Michael McCaul of Texas, for an 
opening comments he may have.
    Mr. McCaul. Thank you, Mr. Chairman.
    When Nicolas Maduro was handpicked by Hugo Chavez in 2013, 
it was clear that he would follow in his socialist dictatorship 
footsteps. Since that time, Maduro's policies, rampant 
corruption, and violent crackdowns on peaceful political 
dissent have turned Venezuela into a failed State. 
Hyperinflation has skyrocketed, food and medicine are scarce, 
and, according to the United Nations, up to 3 million have fled 
the country since 2014.
    Last week, a fuel tanker and two shipping containers were 
placed on a bridge to block the delivery of desperately needed 
humanitarian aid, as seen on the screen. This act highlights 
how evil the Maduro regime really is.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    The current crisis highlights the horrifying impact of 
socialism. Those who continue to preach or show sympathy do not 
understand its history and the abject suffering it has caused. 
Let us be clear, the suffering of the Venezuelan people at the 
hands of the Maduro regime is not caused only by its ideology. 
The Maduro regime is full of criminals that oversee a mafia 
State backed by U.S. adversaries like, Russia, China, and Iran, 
and is linked to drug trafficking and other illicit activities.
    Today, the people of Venezuela have had enough, and over 
the last month they have started to take back their country 
that they love. Inspired by Juan Guaido, leader of the National 
Assembly and Interim President, millions of protesters have 
rallied in the streets across the country and stood up to the 
Maduro dictatorship. Bolstered by the leadership of the United 
States, many nations around the world, including most Latin 
American and European countries, are standing with them, as the 
TV monitor shows.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    I commend the President for recognizing Juan Guaido as the 
legitimate Interim President, for supporting his efforts to 
call for free and fair elections, and for imposing sanctions 
that hold the regime responsible for their criminal actions.
    This week, I will be introducing a resolution. I continue 
to work with the chairman in a bipartisan manner to condemn the 
criminal actions of Nicolas Maduro and countries like Cuba, 
Russia, China, Iran, and Syria for supporting his regime. It 
also clearly recognizes Juan Guaido<greek-e> Interim President 
and urges the international community to support the 
humanitarian and economic assistance for Venezuela.
    The Venezuelan people need to know that America is on their 
side, but it should also be known that we do not aim to choose 
their next leader. We simply want the conditions that would 
allow the people to choose for themselves. Our role must be a 
supportive one, but one that stands for universal principles of 
freedom and democracy. And today's hearing will allow us to 
discuss how we can play that role to the best of our ability.
    In January, I was pleased that the President and Secretary 
Pompeo called on Eliot Abrams to serve as Special Envoy for 
Venezuela. As a seasoned diplomat who has served in numerous 
foreign policy and national security positions, I believe that 
Mr. Abrams is the right man for the job. And I look forward to 
hearing his testimony, as well as the testimony of the other 
experts here today.
    I believe this is an issue that both parties can come 
together on and do what is best for the people of Venezuela to 
support this noble cause.
    With that, Mr. Chairman, I yield back.
    Chairman Engel. Thank you very much.
    It is now my pleasure to introduce our witnesses.
    Mr. Elliott Abrams is the U.S. Special Representative for 
Venezuela at the U.S. Department of State. He is currently on 
leave at the Council on Foreign Relations, where he serves as a 
senior fellow for Middle Eastern studies in Washington, DC. Mr. 
Abrams served as Assistant Secretary of State in the Reagan 
Administration and as the Senior Director of the National 
Security Council for Near East and North Africa Affairs under 
the George W. Bush Administration. I love his first name, even 
though he spells it incorrectly.
    [Laughter.]
    And I look forward to hearing what he has to say today.
    Ms. Sandra Oudkirk is the Deputy Assistant Secretary for 
Energy Diplomacy. Ms. Oudkirk is a career member of the Senior 
Foreign Service. From 2017 to 2018, she served as the Acting 
Deputy Assistant Secretary for Threat Finance and Sanctions in 
the Bureau of Economics and Business Affairs. Her previous 
overseas assignments include consular assignments in Taipei, at 
the U.S. Embassy in Dublin, Deputy Principal Officer in 
Istanbul, and Narcotics Affairs Section Chief in Jamaica.
    Mr. Steve Olive is Acting Assistant Administrator for 
USAID's Latin America and Caribbean Bureau. Mr. Olive served as 
the Acting Director of the Foreign Service Center in the Office 
of Human Capital and Talent Management from 2017 to 2018. 
Previously, he served as Deputy Mission Director for Somalia, 
Deputy Mission Director for Haiti, as well as numerous other 
roles across nearly two decades at USAID.
    We are grateful for your service and your time this 
morning.
    All witnesses' testimony will be included in the record of 
this hearing.
    And now, I would like to recognize our witnesses for 5 
minutes each. We will start with Mr. Abrams.

 STATEMENT OF ELLIOTT ABRAMS, U.S. SPECIAL REPRESENTATIVE FOR 
              VENEZUELA, U.S. DEPARTMENT OF STATE

    Mr. Abrams. Thank you, Chairman. Chairman Engel, Ranking 
Member McCaul, members of the committee, thank you for the 
opportunity to testify on our efforts to restore democracy in 
Venezuela.
    [Audience members interrupt hearing.]
    Chairman Engel. OK. The Chair will remind all persons in 
the audience that any manifestation of approval or disapproval 
of proceedings is in violation of the rules of the House and 
its committees.
    Mr. Abrams----
    Mr. Abrams. Thank you.
    Chairman Engel [continuing]. I apologize. Please continue.
    Mr. Abrams. Venezuela is at a crossroads. Over the past 
month, we have witnessed a massive outpouring of hope and 
courage and tenacity by the Venezuelan people. We saw it again 
yesterday, as they have taken to the streets to protest that 
has brought them nothing but poverty and misery and repression.
    They have placed their hopes in a young, dynamic, and 
legitimate leader, Juan Guaido, to lead them through a 
transition to democracy. And we join the Venezuelan people in 
this effort.
    Under the Maduro regime, the situation inside Venezuela 
will only get worse. Venezuela has become the most violent 
country in the world. Hyperinflation is spiraling out of 
control and will reach a million percent or more. There is 
widespread hunger. Communicable diseases that are easily 
preventable are resurging once again.
    [Audience members interrupt hearing.]
    Chairman Engel. The Chair will remind all persons in the 
audience, if we have to clear the hearing of spectators, we 
will do it.
    [Audience members interrupt hearing.]
    OK. I want to again say the Chair will remind everyone that 
any manifestation of approval or disapproval of proceedings is 
in violation of the rules of the House and its committees. If 
this continues, we will have to just clear out the hearing room 
of people who are here. It is unfortunate, but, apparently, 
there are some people who only believe they are the only ones 
who should be heard. The last time I looked, we were a 
democracy and everyone has the right to be heard.
    So, please continue, Mr. Abrams.
    Mr. Abrams. And oil production has fallen from 3 million 
barrels a day to about a million. It will probably go down to 
about 500,000 by the end of the year.
    More than 3.5 million Venezuelans, as you have said, Mr. 
Chairman and Mr. McCaul, have been forced to flee their country 
and spread throughout the region in search of food and medicine 
and work and protection.
    The light in all this darkness is Venezuela's National 
Assembly, the last democratic institution in Venezuela. Interim 
President Juan Guaido has provided new hope to those who want 
to return to a free and democratic Venezuela. Through his 
efforts, we look forward to a democratic and multiparty 
transition, an economic recovery that benefits all, and 
competitive, free, and fair Presidential elections, truly 
representative of the will of the people.
    We have always recognized that the solution to Venezuela's 
political and economic crisis must be led and achieved by the 
Venezuelan people. The U.S. Government role is to support that 
effort.
    And as we meet today, Mr. Chairman, the State Department 
and its interagency partners are hard at work responding to 
Interim President Guaido's call for international humanitarian 
assistance. We invite international partners to join us in 
helping to fill warehouses and assistance centers with basic 
supplies the Venezuelan people so desperately need. We also 
continue our implementation of over $140 million in existing 
programming to address the regional humanitarian crisis.
    As you have said, Maduro and his cronies are conspiring to 
prevent this lifesaving assistance from reaching the Venezuelan 
people. But, of course, those at the top of the regime are 
well-fed. They impose misery on the Venezuelan people, but they 
do not share it.
    The United States has effectively levied individual and 
sectoral sanctions on the Maduro regime. We have exponentially 
increased the cost of doing business for the regime in the gold 
sector, the financial sector, now in the oil sector, the 
combination of which has created enormous pressure on Maduro 
and his band of thieves. We have frozen bank accounts. We have 
revoked visas of those who benefit from their corruption and 
complicity.
    And this is not a U.S. effort alone. It is now more than 50 
democracies in this hemisphere and around the world. The 
Venezuelan desire for freedom has galvanized the global effort 
on behalf of Interim President Guaido.
    As a result of this growing pressure, there is a storm 
brewing inside the Maduro regime that will eventually bring it 
to an end. While it is impossible to predict the moment this 
will happen, we believe the current political and economic 
environment is unsustainable and that he will not be able to 
weather it much longer.
    For those remaining supporters of the regime, we have one 
simple message: your time is up. A new, free, and prosperous 
Venezuela will rise, and your fellow citizens will remember who 
stood by them in their struggle.
    This includes especially the armed forces who will be 
needed in the future to build a secure Venezuela where law and 
order defeat criminality and violence. Now is the time for the 
armed forces to support the Venezuelan people and reclaim their 
own legitimacy.
    Over the next weeks and months, we will continue our 
pressure against Maduro and his inner circle. Last week, I 
announced visa restrictions and revocations on members of the 
illegitimate Constituent Assembly. Today, we can add we have 
imposed visa restrictions and revoked visas on members of the 
TSJ, the illegitimate supreme court.
    But we will also provide off-ramps to those who will do 
what is right for the Venezuelan people. We will support 
Venezuela's Interim President, the National Assembly, the new 
government, and its aspirations to create a new Venezuela. We 
will continue pressing for humanitarian assistance delivery 
with the help of regional partners and the international 
community.
    And we are hopeful and confident that the Venezuelan people 
will succeed in their quest for liberty. And when they do 
achieve this monumental goal, it will show despots and 
dictators not only in our hemisphere, but in the rest of the 
world that the will of the people for freedom will prevail over 
those who try to suppress it.
    Mr. Chairman, thank you for inviting me here today, and 
thank you for the continuing interest and support that this 
committee has shown, bipartisan interest, in supporting the 
struggle for freedom in Venezuela.
    Thank you.
    [The prepared statement of Mr. Abrams follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Audience members interrupt hearing.]
    Chairman Engel. The Chair will remind all persons in the 
audience that any manifestations of approval or disapproval of 
proceedings is in violation of the rules of the House and 
committees.
    OK. Ms. Oudkirk.

STATEMENT OF SANDRA OUDKIRK, DEPUTY ASSISTANT SECRETARY, BUREAU 
         OF ENERGY RESOURCES, U.S. DEPARTMENT OF STATE

    Ms. Oudkirk. Chairman Engel, Ranking Member McCaul----
    Chairman Engel. Can you push the microphone a little 
closer? Good.
    Ms. Oudkirk. Chairman Engel, Ranking Member McCaul, and 
members of the committee, thank you for the opportunity to 
testify today.
    On January 28th, the United States designated Petroleos de 
Venezuela, S.A., PDVSA, under Executive Order 13850. This 
action extends to entities that are majority-owned by PDVSA. 
These new sanctions are intended to place pressure on the 
illegitimate former Maduro regime, minimize its receipt of 
revenue from the United States, and safeguard the U.S. 
financial system. The designation of PDVSA will also preserve 
Venezuela's national assets for the Venezuelan people.
    The United States is holding accountable those responsible 
for Venezuela's tragic decline. As Special Representative 
Abrams noted, under the former Maduro regime, Venezuelan oil 
production steadily declined due to mismanagement, corruption, 
and a lack of investment.
    PDVSA has long been associated with allegations of 
corruption and a variety of schemes designed to embezzle 
billions of dollars for the personal gain of corrupt Venezuelan 
officials and businessmen. These sanctions aim to prevent the 
illegitimate Maduro regime and other corrupt actors from 
further enriching themselves at the expense of the Venezuelan 
people.
    Concurrent with this action, Treasury's Office of Foreign 
Assets Control issued general licenses that authorized certain 
transactions and activities with PDVSA to help mitigate 
unintended consequences on U.S. companies, interests, and 
allies. These licenses provide equal treatment to U.S. 
refineries that import Venezuelan crude oil. Any payments made 
to PDVSA must, however, be made into a blocked interest-bearing 
account located in the United States. These funds will be 
preserved for the people of Venezuela.
    CITGO, a wholly owned U.S. subsidiary of PDVSA, is 
authorized to continue business operations for the next 6 
months. However, this license does not extend to dealings with 
PDVSA. The license for U.S. companies operating in Venezuela 
will allow them to continue operations with minimal exceptions. 
The oil sector is an integral part of the Venezuelan economy 
and its revival will be essential to the country's economic 
recovery.
    We have engaged allies, including those in other regions, 
such as Europe and Asia, who have joint ventures with PDVSA in 
Venezuela, on the goals and objectives of these sanctions. We 
are working to avoid disruptions in vulnerable energy sectors 
in the Caribbean and Central America in light of PDVSA's 
integrated role in those local and regional energy markets.
    The United States continues to work with oil producers and 
consumers all over the world to ensure access to reliable and 
affordable energy supplies. We believe disruptions are unlikely 
since oil markets are adequately supplied. And U.S. oil 
producers are a key reason why markets are well supplied. Over 
the past year, U.S. crude oil production increased by nearly 2 
million barrels a day and exports increased by a million 
barrels a day. This added to market liquidity. U.S. production 
and exports are poised to continue to grow over the coming 
months.
    And so, in closing, I would like to note that we are 
carefully considering ongoing U.S. involvement in, and links 
with, the Venezuelan energy sector, as we balance our effort to 
support the restoration of democracy and the eventual 
rebuilding of Venezuela. U.S. sanctions need not be permanent. 
They are intended to change behavior. The path to sanctions 
relief for PDVSA is through the expeditious transfer of control 
of the company so that it is no longer a tool for the former 
Maduro regime's illegitimate uses.
    Thank you for your attention, and I am happy to take any 
questions you may have.
    [The prepared statement of Ms. Oudkirk follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you, Ms. Oudkirk.
    Mr. Olive.

   STATEMENT OF STEVE OLIVE, ACTING ASSISTANT ADMINISTRATOR, 
  BUREAU FOR LATIN AMERICA AND THE CARIBBEAN, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Olive. Chairman Engel, Ranking Member McCaul, and 
members of the committee, thank you for the invitation to 
testify today on this critical and timely subject. I am 
grateful for the committee's longstanding bipartisan support 
for Latin America and the Caribbean, especially Venezuela.
    I am proud of the work that we have done to help 
Venezuelans and the neighboring communities that are hosting 
them. Administrator Green and I met some of these Venezuelans 
who had fled their homeland when we visited Cucuta, Colombia 
last July.
    However, we know that humanitarian assistance alone will 
not address the root causes driving people away from Venezuela. 
Lasting political and economic reforms are the only sustainable 
solutions to this crisis. This is a pivotal moment in the 
history of Venezuela. The people are standing up against the 
dictator; they are not alone. As USAID Administrator Mark Green 
said, and I quote, ``We proudly stand with the people of 
Venezuela who are yearning for freedom and a true democracy.'' 
End quote.
    Venezuelans have endured steady erosion of human rights and 
fundamental freedoms under the corrupt and repressive Maduro 
regime. We have seen widespread shortages of essential food and 
medicine. There have been major outbreaks of diseases like 
diphtheria, measles, and malaria, which had previously been 
under control or eliminated.
    On January 23d, the people peacefully took to the streets 
to protest against Maduro's regime. The National Assembly, the 
only legitimate body, has asserted its constitutional authority 
and put power back in where it belongs-in the hands of the 
Venezuelan people.
    The struggle for democracy in Venezuela is led by the 
Venezuelan people themselves. I am proud that USAID has a long 
tradition of standing by Venezuelans who have continued to 
assert their democratic rights. USAID supports local human 
rights defenders, civil society, independent media, electoral 
oversight, and the democratically elected National Assembly.
    Over the past 5 years, we have provided close to $40 
million in democracy assistance to these groups, including the 
planned $15 million in Fiscal Year 2018 funding, which cleared 
Congress yesterday. Thank you.
    I salute the bravery of the Venezuelans who have kept up 
the fight for democracy even when their cause seemed nearly 
impossible. USAID Administrator Mark Green and I have spoken by 
phone with Interim President Guaido<greek-e>d have met with 
Venezuelan ambassadors Vecchio and Borges to coordinate USAID's 
humanitarian response and support to the National Assembly, as 
they restore democracy and prosperity in Venezuela.
    Our most immediate priority will be to get food and 
medicine to those who need it. USAID will always be ready and 
willing to help vulnerable Venezuelans. When Interim President 
Guaidoquested urgent humanitarian assistance from the United 
States, Secretary of State Pompeo announced that we are ready 
to provide initial humanitarian assistance to the people of 
Venezuela. USAID has prepositioned food, nutritional 
supplements, hygiene kits, and medical supplies in Cucuta. The 
U.S. is coordinating with Interim President Guaido<greek-e>d 
his team of experts, governments in the region, and 
humanitarian partners on the logistics of deploying aid, to 
mobilize a response that is efficient and safe.
    Since Fiscal Year 2017, the United States has provided 
approximately $140 million, including nearly $97 million in 
humanitarian assistance and approximately $43 million in 
development assistance, to support affected countries' 
emergency efforts and build their long-term capacity to host 
the more than 3 million people who have fled Venezuela.
    Mr. Chairman, Ranking Member McCaul, members of the 
committee, thank you again for this opportunity to testify 
today. I thank you for your continued bipartisan support and 
look forward to engaging with you further as the United States 
helps the people of Venezuela to return to peace, prosperity, 
and democratic and citizen-responsive governance. Thank you.
    [The prepared statement of Mr. Olive follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you very much, Mr. Olive.
    Let me start the questioning, and let me ask Mr. Abrams: as 
I said in my opening statement, I am certainly willing to give 
credit where it is due in terms of elements of the 
administration's approach to Venezuela. But my biggest concern 
about the policy is what seems to me is clearly missing, and 
that is an effort to deal with the 3 million Venezuelans who 
have fled the country. The administration has pushed countries 
in the region to open their homes and hearts to Venezuelans, 
and I certainly support this effort. But how can we call on 
other countries to admit Venezuelans while continuing to close 
the doors of our own country to these same individuals?
    So, my question is, will the Trump administration reassess 
its historically low refugee admission numbers, and will 
President Trump grant temporary protected status, or TPS, to 
the many Venezuelans here in the United States who should not 
be forced to return to Maduro's Venezuela? I would urge you to 
do so. I would like to hear what you have to say about it.
    Mr. Abrams. I cannot speak about the broader refugee 
question. It is just not within my own remit. The question of 
Venezuelans, in particular, the doors are not closed, 
certainly, for those who have a reasonable fear of persecution 
and can apply for political asylum.
    But, on the broader question, I think you are raising an 
important question, and it is one that I intend to discuss with 
the Secretary when he completes the current trip to Europe, the 
question of Venezuelans who are in the United States.
    Chairman Engel. I hope we can continue to have dialog on it 
because I think it is really, really important. The situation, 
as you have said, with the refugees should really be paramount 
or at least upfront in terms of things that we are doing and 
things that we could do to help diffuse this crisis. So, I am 
going to pursue that, and I hope that we can get some more 
answers.
    Let me ask you again, Mr. Abrams, and maybe Ms. Oudkirk can 
also comment: when it comes to the new sanctions on the 
Venezuelan oil sector, I certainly understand the need to 
squeeze Maduro, but I hope that the White House has thought 
through the potential impact that these sanctions could have on 
the Venezuelan people if Maduro, by some reason, manages to 
remain in power. So, has the administration assessed the 
humanitarian impact of these sanctions on the Venezuelan people 
if there is not a quick transition? Have you considered the 
impact on U.S. refineries and their employees which process 
Venezuelan oil? And can you please share those assessments with 
us?
    Mr. Abrams. On the humanitarian impact, the money that the 
United States was paying to PDVSA was not going to the 
Venezuelan people. I mean, if it were, the kind of starvation, 
the kind of reappearance of communicable diseases would not be 
taking place. So, I do not think the sanctions alone are going 
to have that impact. But, in any event, we want to do a very 
big humanitarian surge with the many allies we have in this 
effort to help the Venezuelan people to make sure that their 
own situation is not worsened.
    Chairman Engel. OK. I hope that we can continue to have 
further dialog on it.
    Ms. Oudkirk, do you have a comment on that?
    Ms. Oudkirk. Yes, Mr. Chairman. On your question related to 
the impact on the United States, on refineries, we have been 
looking at that very closely and we are in very close contact 
with the 12 Gulf Coast refineries that imported the majority of 
Venezuelan crude oil that came into the United States. There 
are a number of license applications pending with OFAC that 
will provide some specific relief, and we at State are working, 
in concert with our Treasury colleagues, to process those as 
quickly as possible. And we are committed to remaining in 
contact with U.S. industry as the situation progresses.
    Chairman Engel. All right. Thank you very much.
    I would now like to call on Mr. McCaul, our ranking member.
    Mr. McCaul. Thank you, Mr. Chairman.
    Mr. Abrams, I think we really have an historic opportunity 
to transform what has been a socialist dictatorship that has 
been a humanitarian crisis into a democracy supported by 
freedom and the people, and at the same time, I think for the 
first time in decades, have an influence on Cuba and the 
Western Hemisphere. As I look at the Russians in Venezuela and 
Iran, the Chinese, that worries me about our backyard.
    But I want to ask you this question: how important is it 
for the U.S. Congress to recognize the legitimacy of the 
Interim President Guaido?
    Mr. Abrams. Mr. McCaul, I think it would be very important. 
I mean, we have 51 countries, including the United States now, 
that recognize him as the interim legitimate President of 
Venezuela. I think it would be really valuable for the Congress 
to join that crowd.
    Mr. McCaul. I will continue to work in that effort with the 
chairman.
    Let me ask you about the military. I think the majority of 
the military supports the people and President Guaido. I think, 
unfortunately, the ones at the top, there is corruption; there 
is narco-terrorism, cartels. How do we get the military to move 
away from Maduro to support the people and President Guaido?
    Mr. Abrams. This is the toughest question. And our answer 
thus far has been, first, to pressure them, sanctioning many 
members of the upper ranks. Second, to tell them continually 
that there are off-ramps if they decide to side with the people 
of Venezuela. Thus far, obviously, that has not happened except 
in a few isolated cases.
    But we are hearing a lot of discontent in the military. I 
mean, for one thing, if you are a general and look down at the 
ranks, you know that your own people in the army are starving. 
And what about their brothers and sisters and mothers and 
fathers? So, we think that this opinion is spreading within the 
military that the current situation is untenable. We hope that 
there will be a decision on the part of many in the military, 
first, not to support the Maduro regime, but, second, not to 
block desperately needed humanitarian aid.
    Mr. McCaul. I was impressed by your optimism about the 
situation, that eventually that will happen.
    Mr. Olive, on the humanitarian aid issue, we saw the 
pictures of the roads being blocked off by Maduro, not allowing 
the humanitarian assistance from the Lima Group that agreed to 
send this down there. We just met with the President of 
Colombia, and he was talking about this very issue. How can we 
get that assistance into Venezuela to help these desperate 
people? And have you thought about possibly using not just the 
land borders, but the sea as well?
    Mr. Olive. Thank you, Ranking Member McCaul.
    We are, indeed, looking for ways of distributing the 
assistance safely and effectively within the country. We are in 
daily communication with Interim President Guaido and his team 
on finding out those avenues to do so. We are also committed to 
prepositioning goods and supplies in other parts, if that is 
necessary. We also are looking at scenarios of flying things 
in, as the situation permits.
    But, right now today, the Maduro regime is not allowing 
access. And we do hope that, through the diplomatic efforts we 
are making and the internal efforts by the Interim President 
Guaido<greek-e>d his team, we will change that scenario 
shortly.
    Mr. McCaul. Well, and I think as the people of Venezuela 
see what their, I would say, illegitimate President is doing 
and what the military is doing to block this humanitarian aid, 
that they will rise up even more so, and hopefully, return this 
country to a democracy. It could be such a great country with 
such great natural resources.
    And so, with that, Mr. Chairman, I yield back.
    Chairman Engel. Thank you, Mr. McCaul. Mr. Sherman?
    Mr. Sherman. Wherever Russia goes, people flee. We have 3 
million Syrians who have left their country and nearly the same 
number of Venezuelans.
    There is talk here of Venezuela being a socialist country. 
I would say that various governments in Scandinavia have 
adopted policies of democratic socialism, and I do not think 
there is anyone in this room that would call the Maduro regime 
democratic socialist.
    We have got a situation where Russia expects to be repaid. 
Mr. Abrams, what steps are we considering to support an action 
by the Venezuelan people to say, ``OK, we owe you so much minus 
the $2, $3, $10 trillion of harm you did to our country by 
supporting this criminal Maduro; therefore, you only owe us $1 
trillion instead of $2 trillion.''? Mr. Abrams, are we 
discussing with the Russians how we can make it plain that in 
the permanent future of the Venezuelan government that they do 
not have to pay Russia and that they will not suffer any 
demerits in their credit rating for Western agencies and 
Western banks?
    Mr. Abrams. We have begun to have those discussions. 
Primarily, of course, it would be led by Treasury. But the 
interim government, the National Assembly, has said that they 
would repay debts. Some of those debts I think were never 
approved by the National Assembly. Ultimately, it is a decision 
with most of these that they are going to have to make.
    Mr. Sherman. But have we put the Russians on notice that we 
would support, and require our banks to support, a decision by 
the Venezuelan government to offset that by trillions of 
dollars of claims against Russia, and that we would prohibit, 
we might choose to prohibit our banks from looking at any 
credit rating that was impaired by failure to repay Russia?
    Mr. Abrams. I do not believe that exact message----
    Mr. Sherman. I hope you will.
    In this room we were told that Turkey is a great friend of 
the United States, and therefore, we should turn a blind eye to 
history and not recognize the Armenian genocide. Mr. Abrams, 
can you work inside the administration so that they have an 
understanding that Turkey is not a friend of ours here in our 
own hemisphere, and that, accordingly, the administration would 
announce that it would not object to this committee, once 
again, as it has in the past at the committee level, passing 
the Armenian genocide resolution?
    Mr. Abrams. You are going to get me in trouble here with 
these questions.
    Mr. Sherman. That is the job.
    Mr. Abrams. That is the idea.
    The role that Turkey is playing in Venezuela is to give 
all-out support to the Maduro regime. There are very few 
countries that are doing that. Turkey has decided to align 
itself with Russia/Cuba in taking that position. And I will 
certainly take your message back to the Department.
    Mr. Sherman. Are you directly in contact with the Turkish 
government regarding their policies in Venezuela?
    Mr. Abrams. I am not personally.
    Mr. Sherman. I hope you would talk to those who are----
    Mr. Abrams. Yes.
    Mr. Sherman [continuing]. And make it plain that the 
administration, if you just go neutral on this, Congress will 
be the conscience of this country.
    And we also have Venezuela reportedly owe China $20 
billion. I know that China's policy toward Maduro is different 
than that of Russia, but what is China doing now to help the 
legitimate government of Venezuela?
    Mr. Abrams. They are not doing anything to help Mr.----
    Mr. Sherman. Are they providing any additional funds to 
Maduro?
    Mr. Abrams. No. My information is that they will not lend 
any more money because they are worried about getting back what 
they have already lent. And the message that we have passed to 
them is, if you continue to back Maduro and the economy of 
Venezuela descends further, you will never get paid back.
    Mr. Sherman. And I would point out that countries repay 
loans because they fear they will not be able to borrow more 
because of the credit ratings that come from basically New 
York, and that there may be times when we need to instruct 
credit-rating agencies and banks not to regard as a demerit a 
failure to repay a criminal loan.
    I yield back.
    Chairman Engel. Thank you. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Welcome to our very distinguished witnesses, and it is 
great to see Elliott Abrams who has done a tremendous job for 
decades.
    Let me just ask, first, on sex tourism, there are about 3 
million people who have become refugees and an undetermined 
number are IDPs. Many are along the border of Colombia. We know 
that the gangs very often turn these women into sex slaves. So, 
my question is, what are we doing to try to combat that? 
Venezuela has been a Tier 3 country for many, many years, 
including currently, an egregious violator, and that is even 
before the latest crisis.
    Second, as was pointed out, Mr. Olive, 300,000 children are 
at risk of death from malnutrition. You underscore the 
resurgence of once eradicated diseases like diphtheria. I am 
wondering, have vaccinations ceased in Venezuela? I remember in 
the 1980's President Duarte in El Salvador had days of 
tranquility. And I have actually traveled down when--and 
Elliott will remember this very well--when Duarte and the FMLN 
had days of tranquility to vaccinate the kids because so many 
were dying from preventable diseases. Would days of tranquility 
be perhaps a way forward to get these kids vaccinated?
    Let me also point out that the Foro Penal, the Venezuelan 
human rights group, said, between January 21st and 31st, the 
number of Venezuelan political prisoners jumped from 273 to 
966. How many of those are being tortured? And why has not the 
U.N. been even more outspoken against this horrific 
mistreatment of these people, including young people, 
adolescents?
    And finally, The Wall Street Journal reported that the 
government of Juan Guaido has held debt negotiations here in 
Washington with China. Are we a part of that? Are we 
encouraging it?
    Not much time, but if you could answer those questions?
    Mr. Abrams. Let me just begin on the trafficking of 
persons. We get no cooperation from the Maduro regime, of 
course. There are efforts--and Mr. Olive can talk about that--
on the Colombian side of the border to offer not only food and 
medicine, but some protection as well.
    Mr. Olive. Thank you, Congressman.
    And that is absolutely correct. On the border areas, 
especially in Colombia that is, our funding does help with that 
issue. It is a very large issue that we cannot control 
completely, but our programs do address that.
    Mr. Smith. Can you provide for the record some elaboration 
on that, and how well the TIP office is engaging on this as 
well?
    Mr. Olive. I will defer to State for the TIP offices. But, 
for our programs that we are providing in Colombia, they 
include identifying vulnerable people who might be vulnerable 
for trafficking, working with youth on the issue, et cetera, as 
part of the programming.
    Sir, in terms of vaccines, yes, it is true that inside 
Venezuela there are less and less medicines and vaccines 
available, and therefore, less children and other people being 
vaccinated. We have seen an increase, then, in these diseases, 
as a result. We are monitoring that carefully in Colombia, 
again, as part of our assistance. The Colombian medical system 
is very concerned about being overwhelmed and having these 
diseases to be on the increase in their country as well. And 
so, that is part of our assistance package, and eventually, the 
assistance package that goes into Venezuela will also include 
vaccines.
    Mr. Smith. Did you want to comment on the debt issue and 
whether or not the Chinese negotiations with the----
    Mr. Abrams. I do not believe there are any negotiations, 
using that terms narrowly.
    Mr. Smith. OK. Talks?
    Mr. Abrams. Discussions, sending of messages, have taken 
place. There have been some reports in the press, also, about 
additional talks that the Chinese have denied. And I have not 
had a chance to find out whether they have actually taken 
place.
    Mr. Smith. If you could speak to the use of torture? And is 
the Convention on Torture and the experts at the U.N. treaty 
body looking into this? Anybody know?
    Mr. Abrams. There are many reports of use of torture in 
Venezuela, but they have not permitted the various U.N. Special 
Rapporteurs to come in for quite a while. So, that is one of 
the things we would like to see, for the regime to admit the 
Special Rapporteur on Torture.
    Mr. Olive. Congressman, your committee and Congress has 
provided us with increasing assistance to Venezuela, and it 
includes defending victims of human rights and helping them on 
these issues.
    Mr. Smith. Again, on the trafficking issue, are there any 
estimates as to how many women and/or children have been 
trafficked?
    Mr. Abrams. I do not have those. I do not know of the TIP 
office has them. We will find out and come back to you.
    Mr. Smith. OK. I appreciate that. Thank you.
    [The information referred to follows:]
    Chairman Engel. We are going to have to end the 
questioning. Thank you, Mr. Smith. Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    Democracy is the key for me. And I have got a deep and long 
history with Venezuela. I do not like the fact that there is no 
democracy in Saudi Arabia. I do not like the fact that there is 
no democracy in North Korea. And I speak out about it and, 
then, some of these places, they do not have any elections. I 
do have confidence in the Venezuelan people.
    I was back and have been involved in Venezuela when many 
were not here. I was part of a bipartisan delegation. It was 
Cass Ballenger from North Carolina, Bill Delahunt from 
Massachusetts, and myself who engaged with then-President Hugo 
Chavez. And I saw back then that individuals who were poor, who 
had never had anything from any other government, never any 
consideration, where I was on the ground to see that they, for 
the first time, were getting schools and hospitals, and getting 
their fair share under--and this President, Hugo Chavez, was 
elected in a free and fair election.
    I have seen, because I was there; I witnessed several of 
these elections, when the United States--and this is why the 
United States cannot lead in this matter--I was there several 
times for elections and I watched people line up in a peaceful 
way and waited for hours to vote, and elected Hugo Chavez. I 
saw recall elections, and Hugo Chavez allowed the democratic 
process to continue, and he faced those recall elections and 
won, fair and square.
    So, I, then, saw that there was an attempted coup in 
Venezuela in 2002. And as certain CIA evidence has now been 
revealed, we, the day after the coup, acknowledged the coup 
government. The people of Venezuela went back in the streets 
and demanded that their democratically elected President was 
restored.
    So, the context and the reason why I say that is it is 
complicated and difficult for us in the United States to take 
the lead when, in fact, the Venezuelan people also know that we 
acknowledge not a democratically elected President, but we try 
to undermine them.
    So, for me, democracy is important, and that is why I do, 
and I am worried about democracy when it has failed. And I have 
known Nicolas Maduro. We had this group called Grupo de Boston. 
And I have tried my best to try to bring both sides, opposition 
and at that time Chavistas together, and we had people working 
collectively.
    I must admit, under the Nicolas Maduro, I have seen the 
situation continue to deteriorate, and people of Venezuela are 
suffering. And I have seen him avoid some democratic elections. 
I have seen the National Assembly get democratically elected. 
So, there is democracy in Venezuela. That is why I recognize 
the National Assembly, and the National Assembly speaks, for 
me, for the people of Venezuela, which is why our focus should 
be on having free and fair elections in Venezuela.
    I am concerned about the conversations that the President 
is having with the threat of sending military into Venezuela. 
What our focus should be is to make sure that we are doing all 
that we can, supporting the Lima countries, the OAS, and the 
others, to have a free and fair election conducted, because the 
Venezuelan people believe in democracy. And that is why you see 
the National Assembly now where the opposition is.
    And I am continuing to talk with members of the opposition, 
members of the National Assembly, and members of the military, 
et cetera, about working together, so that we can have a free 
and fair election, so that the voices, not of the United 
States, but of the people of Venezuela is clearly heard.
    I yield back.
    Chairman Engel. Thank you, Mr. Meeks. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank all of our witnesses for being here today.
    It is really sad to see one of the greatest countries of 
our hemisphere, Venezuela, which was one of the wealthiest 
countries of Latin America. I know that over the years our 
families had wonderful associations with Venezuelans that is 
just so reassuring. And I believe, too, in the people of 
Venezuela.
    And that is why I am very grateful that the National 
Assembly has elected President Juan Guaido, and the recognition 
by 51 countries of his presidency, and this is on behalf of the 
people of Venezuela.
    Additionally, I am very grateful for the United States 
Agency for International Development, Mr. Olive. People need to 
know how effective USAID has been around the world, helping 
persons in relief efforts, and, in particular, at this time, 
$97 million has already been provided; another $20 million from 
the State Department. But, of course, it is very clear that the 
aid has been blocked by the Maduro regime.
    And so, what efforts are being made to get around this 
blockage, Mr. Olive? And what can be done to help get more aid 
to the people of Venezuela?
    Mr. Olive. Thank you, Congressman, for your question.
    We are on a daily basis with calls with members of the 
interim government of Guaido's regime, of his presidency 
talking about ways we can get aid into the country. There are 
many scenarios being put forth. We are overturning every stone 
to see what is possible. There are diplomatic efforts that I am 
sure the Special Representative can also speak to. But, rest 
assured, daily we are trying to find a way to get this 
assistance to the people who need it most.
    Mr. Wilson. And we are very fortunate, again, to have 51 
countries recognize the Guaido presidency. What efforts are 
being made internationally, not just USAID, to help the people 
of Venezuela?
    Mr. Abrams. There is a very broad effort. You will have 
heard, at the Ottawa meeting about a week ago, Canada announced 
$53 million in additional aid. Each day, you find one or 
another country, mostly in Europe now, announcing another 
contribution to this effort. So, it is an increasingly 
international effort.
    Mr. Wilson. And to reassure the people of Venezuela, what 
efforts are being made that it, indeed, gets to the people of 
Venezuela, as opposed to what has occurred in the past of where 
there has been looting?
    Mr. Olive. Thank you, Congressman.
    We share that same concern, that the delivery of assistance 
must be done safely. It must be done efficiently. And those 
provisions need to be in place for us to be effective in 
delivering assistance to the Venezuelan people.
    Mr. Abrams. I would just add that I think that is true of 
all aid, including U.N. aid, and we have looked at that, too. 
That is, the regime has used aid--first of all, they have 
stolen a good deal of it, but they have also directed it to 
their political supporters. And we are trying to make sure that 
any path of aid that goes in is not diverted either for 
corruption or for political purposes.
    Mr. Wilson. Well, it just makes a difference for the 
people, and it is just encouraging to see bipartisan support 
for this aid.
    Ms. Oudkirk, it has been reported that the Maduro regime is 
either transferring or selling the assets of the people of 
Venezuela, which is their gold reserves. What is the latest on 
protecting the gold reserves for the people of Venezuela?
    Ms. Oudkirk. I am sorry, Mr. Congressman, I, unfortunately, 
do not work with gold reserves. I can take that question back, 
though.
    Mr. Wilson. And additionally, with that, we have sanctions. 
I hope that, as you get back with me, that we identify who the 
possible purchasers are and who is facilitating this, so that 
sanctions can be in place.
    And then, Mr. Abrams, again, thank you for your service for 
our country.
    We know that there is drug trafficking, significant, out of 
the regime, the Maduro regime; human trafficking. What is being 
done? And also, terrorists, harboring of Hezbollah, FARC. And 
what is being done to identify this and block efforts that 
would threaten American families?
    Mr. Abrams. Well, it is very difficult when you have a 
regime that is, in fact, very much in favor of doing that. ELN, 
a guerilla group from Colombia, is protected on their side of 
the border. There is a lot of drug trafficking that benefits 
the top officials of the regime.
    What can we do? Well, one thing we can do is sanction those 
who are involved in this. In some cases, we can prosecute 
people involved in this, and try to assemble the information. 
Because the day will come when Venezuelans will take back 
control of their own government and their own country and they 
will be able to pursue this.
    Mr. Wilson. Thank you. We look forward to a bright future 
for Venezuela. Thank you very much.
    Chairman Engel. Thank you. Mr. Sires.
    Mr. Sires. Thank you, Chairman, for holding this meeting.
    And thank you to the witnesses that are here today.
    Ms. Oudkirk, can you talk to me a little bit about the oil 
sanctions? I know that, in light of reports that Juan Guaido 
plans to name a new board of directors for CITGO, the process 
will require the U.S. to legally recognize the new board 
members. Would a new board have access to U.S. bank accounts 
with proceeds from Venezuela's oil sales that are being blocked 
by the sanctions?
    Ms. Oudkirk. Thank you, Mr. Congressman.
    So, as I noted in my remarks, the key to sanctions relief 
for PDVSA is the transfer of control of that company away from 
Maduro and his cronies and to a democratically elected 
representative of the Venezuelan people.
    With regards to CITGO, CITGO operations in the United 
States are covered by a general license that Treasury issued on 
the day the sanctions were announced. So, CITGO's operations 
here in the U.S. are continuing under that license, and that 
license covers them for 6 months from the date of announcement. 
The ban is on remitting payments back to PDVSA as long as it is 
under the illegitimate control.
    Mr. Sires. What would a board do named by Guaido? What 
would that do if he names a new board?
    Ms. Oudkirk. For CITGO?
    Mr. Sires. Yes.
    Ms. Oudkirk. I will have to get back to you on the details 
of that. I do not have the answer for you right now. I am 
sorry.
    Mr. Sires. Mr. Abrams, do you?
    Mr. Abrams. Well, we do not want any funds to go to the 
regime. So, that would not be permitted. But I think there are 
a lot of lawyers in Washington who are making a lot of money 
trying to figure out the answer to your question.
    Mr. Sires. Well, my daughter is lawyer. Let's not kill the 
lawyers.
    [Laughter.]
    Go ahead.
    Well, you know, my thing is, if we are able to get this 
money in U.S. banks, and obviously, under the sanctions, could 
that money be used for humanitarian purposes in Venezuela?
    Mr. Abrams. It can. All these funds, all Venezuelan 
government funds are, in our view, rightly available to the 
legitimate Interim President, Mr. Guaido, and the National 
Assembly. So, they can use those funds to purchase additional 
humanitarian assistance.
    There are a lot of procedures to go through to get them 
actual control of it. And they have made it clear that they 
want to be extremely careful. They are going to be accused of 
misusing the funds. So, everything has to be totally 
transparent. But, in principle, yes.
    Mr. Sires. OK. And I know that Maduro is propped up by the 
Cubans in Venezuela. How many Cubans are really actually in 
Venezuela propping him up?
    Mr. Abrams. To give you a round number, it is in the 
multiple thousands. It is not a few hundred. It is several 
thousand Cuban officials, including intelligence people.
    Mr. Sires. And getting back to the money, I know that he 
made an effort to move a billion dollars into Uruguay in gold. 
And Uruguay rejected it. Did you read that article?
    Mr. Abrams. There are continuing efforts, and some of them, 
I am sorry to say, look as if they have been successful, in 
which a private jet comes in and gold is put on it, and off it 
goes. And then, the gold is sold, and the money goes to people 
in the regime.
    Mr. Sires. Now they are opening an account in Russia? That 
was the latest that I read. They moved the money into Russia?
    Mr. Abrams. I have seen that information, too. Most Western 
banks, not just American banks, European banks, will not touch 
any of this. So, they need to go look for things like a Russian 
bank that will deal with it.
    Mr. Sires. But if we prevent the money from going into 
Venezuela, where are they getting this money to move to Russia? 
Can you speak to that?
    Ms. Oudkirk. So, I think the point of the sanctions is to 
do exactly what you just described, to keep the money in these 
blocked interest-bearing accounts in the United States, so that 
they do not flow back to Venezuela and are not, then, you 
know----
    Mr. Sires. Disappear?
    Ms. Oudkirk [continuing]. Disappeared. However, the 
sanctions were only announced a couple of weeks ago. So, money 
that had gone back before then is available to the illegitimate 
regime to be used for these purposes. So, the point is, from 
now going forward, keeping that money in the blocked accounts, 
so that it cannot be misused.
    Mr. Sires. OK. Thank you very much. My time is up.
    Chairman Engel. Thank you very much. Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate the panel 
being here.
    As we know, the Maduro disastrous economy has created a 
food insecurity. Only about 30 percent of the protein 
requirements are being met. There are cases of malaria and TB 
increasing. In a failed State, you see measles, diphtheria; 
sanitation goes down. So, it is a bad situation and it is going 
to get worse.
    Yet, over the last 10 years, Maduro--and I am going to, in 
a spirit of bipartisanship, I am going to agree with my 
colleague, Gregory Meeks about Chavez in the beginning. Because 
there were some rapid changes that did benefit the people in 
the lower tiers of the economy. However, that got absconded in 
his third and fourth term, and then, Maduro just lost it.
    Maduro has taken over $11 billion from the Venezuelan 
people, and it is the most violent country on the planet today. 
And you think of all the things going around as far as murders 
per capita. And then, you look at who is supporting Maduro. It 
is Cuba, Russia, China, Iran, Bolivia, Turkey, certainly not 
cheerleaders of democracy or certainly America.
    And then, I look at Cuba, and we have heard numbers over 
the course of the last few years that Maduro has Cuban security 
guards around him because he does not trust the Venezuelans. We 
have heard numbers up to 40,000 Cuban soldiers in Venezuela. 
Are they playing a role of surveillance and intimidation, in 
your experience, in the information you have, toward the 
Venezuelan people?
    Mr. Abrams. Yes, and toward the Venezuela security forces, 
Mr. Yoho. I think you are exactly right, that they are the 
security guards directly around Maduro. And one of their really 
important roles is to spy on and surveil the security forces, 
the army, to make sure that everybody shows loyalty to Maduro. 
He does not trust his own people.
    Mr. Yoho. You know, I am glad you brought that up, the 
surveillance. We just heard last week from a very reliable 
source that China, via ZTE, is offering their facial 
recognition to the Maduro government, so that they can control 
their people like China is doing. Russia wants that technology. 
They are going to do it. Iran wants that. And I think we are 
seeing things played out.
    History is repeating itself with a failed State that 
creates a vacuum, that vacuum will be filled. And so, we have 
got a choice. We can allow Russia, China, Iran, Cuba, people 
that are anti-democracies, anti-American, fill that void. The 
people of Latin America, Venezuela in particular, will really 
suffer. Or we can get behind the legitimate Interim President, 
President Guaido. And with us and the 51 nations, as Mr. Wilson 
talked about, stand behind them because that is the right thing 
to do, and it is the right thing to do for the Venezuelan 
people.
    Something came up in a question. Do the people of Venezuela 
have gun ownership rights or was that taken away by Chavez or 
Maduro?
    Mr. Abrams. I do not know the answer to that.
    Mr. Yoho. OK.
    Mr. Abrams. I will have to find out.
    Mr. Yoho. But it is interesting that a socialist country 
that turns to a dictatorship does not have the means to protect 
themselves. Yet, the criminal gangs do and the narco-terrorists 
have those, and the military has those.
    Mr. Abrams. We do know that the Maduro regime has 
distributed arms to its gangs.
    Mr. Yoho. They have, and I think that, again, goes to just 
the breakdown of Maduro, because he knows he is not legitimate. 
And if we are going to honor legitimate elections, we know that 
President Guaido is the one that we need to follow.
    Ms. Oudkirk, you were talking, the question came up about 
CITGO. If the legitimate President gets recognized around the 
world, President Guaido, that money that CITGO is producing, if 
we were to remove the sanctions, or keep the sanctions on, that 
money can go into escrow, cannot it, so that we know it does 
not go to Maduro? And when things get sorted out, it will go 
back to the rightful owners, the Venezuelan people, right? We 
can do that, cannot we?
    Ms. Oudkirk. Yes, Mr. Congressman. The point of the 
license, the general license that was provided for CITGO 
operations, was to allow CITGO to continue to operate here in 
the United States, and for any funds that would have been 
remitted back to the PDVSA parent in Venezuela, to be held in a 
blocked interest-bearing account here for the future use of the 
democratically elected representatives of the----
    Mr. Yoho. Thank you. I am out of time. And I appreciate 
your expertise. Thank you.
    Chairman Engel. Thank you. Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Mr. Abrams, you said that there is a coalition of 51 
countries joining with us or that we are part of. How many of 
those countries have said that the use of military force is an 
option and should be on the table? How many of those other 
countries have stated that?
    Mr. Abrams. I do not know of any that have Stated it.
    Mr. Keating. I do not, either, and that is why I asked the 
question. So, we are the only ones that have Stated that, have 
their leaders say that?
    Mr. Abrams. We are the only one probably in a position----
    Mr. Keating. Oh, no, that is not what I asked. I mean, the 
other thing is, Ambassador Bolton, just a couple of weeks ago, 
was seen holding a notepad and it captured ``5,000 troops to 
Colombia''. And the President, last weekend, is again stating 
that the use of U.S. military force is an option. And my 
concern is, if it were part of a coalition, we should be 
working in concert with that, not standing alone having an 
option like that on the table.
    And I think that, as you look at our actions in that 
respect, I think, indeed, it can backfire on us. I think it 
plays right into Maduro's rhetoric about the U.S. involvement. 
And I think it is something that will not help the cause of 
that.
    Has President Guaido, has he ever said anything or uttered 
anything about the use of U.S. military force as an option? Has 
he said that?
    Mr. Abrams. He actually made a comment a few days ago 
relating to humanitarian----
    Mr. Keating. No, I mean military force, I am talking about.
    Mr. Abrams [continuing]. Related to getting humanitarian 
assistance in. But this is not the path, I think you can see, 
that the U.S. Government is pursuing.
    Mr. Keating. Then, why are we saying it, though? That is my 
question.
    Mr. Abrams. Because we always say it in all----
    Mr. Keating. You know, Section 3 of the War Powers 
Resolution says the President should be consulting with us. I 
think we are doing so many things that could be helpful. We are 
working in concert with other countries. All those things are 
good. But the statement--I mean, I do not think it was a 
mistake perhaps that that notebook phrase from Ambassador 
Bolton was captured. And why would he have that on his 
notebook? Why would that come out? And why would the President 
be saying this without working in concert with the other 
countries in the coalition or without having, first, a sincere 
dialog with Congress on this matter? Doesn't that make your job 
more difficult?
    Mr. Abrams. It has not because we always take the position 
that all options are on the table.
    Mr. Keating. Well, perhaps that is not a good option right 
here. I believe strongly that we are hurting our cause and the 
cause of the Venezuelan people.
    Mr. Abrams. Well, in the work that we are doing--and we are 
doing it--on the diplomatic front and on the economic front, on 
the humanitarian front, with lots of other countries, this 
issue does not get in the way.
    Mr. Keating. Well, I think it plays right into the hands of 
the dictator that is our adversary right now. And I think it 
really undercuts the ability and our involvement with the 
Venezuelan people themselves. Because, ultimately, I think we 
all agree the resolution, if there is going to be any kind of 
significant, tangible resolution, will come at the hands of the 
Venezuelan people themselves to make that.
    Mr. Abrams. I agree.
    Mr. Keating. Just a quick question then. Before we 
recognized President Guaido, were there actions taken to make 
sure our embassy personnel were secure before that was uttered? 
Was there actual policy discussion before that was uttered?
    Mr. Abrams. Yes. This is a matter of the utmost 
significance to all of us, to the Secretary. We speak to the 
charge' in Caracas literally every day. I talked to him this 
morning again about the question of security. It is on the 
minds of everybody in the Department and it was then.
    Mr. Keating. I would suggest, too, as a final comment, that 
it is too late now, but, as we go forward, before the 
administration is talking about the use of military force in 
this situation, keeping that as an option, that they should 
have sincere discussions with this committee and with Congress, 
and then, make declarations like that.
    I yield back.
    Chairman Engel. Thank you. Ms. Wagner.
    Mrs. Wagner. Thank you, Mr. Chairman, for organizing this 
hearing.
    And thank you to our witnesses for their time and certainly 
for their service.
    Mr. Abrams, in keeping with the prior questioning, I can 
say that, in the wake of Maduro's abortive attempt to expel 
U.S. diplomats, the United States is negotiating with the 
Venezuelan foreign ministry to establish a U.S. interest 
office, I have been told. Mr. Abrams, can you provide an update 
on these negotiations? And again, what security measures have 
been taken to keep our diplomats safe?
    Mr. Abrams. Well, on the security measures, I wouldn't want 
to go into that at an open hearing. But the security question 
is one, again, that is on our minds every day. We are not 
negotiating an intersection. An intersection is used in a case 
where there is a government and we do not recognize that 
government. But in Venezuela there is a government we do 
recognize, which is----
    Mrs. Wagner. So, is there a U.S. interest office being 
stood up, or no?
    Mr. Abrams. No, there is not.
    Mrs. Wagner. There is not? All right.
    Mr. Abrams. There is not.
    Mrs. Wagner. I am amazed at the breadth of the 
international coalition now calling for change in Venezuela. 
Principles of sovereignty and non-interference have in the past 
limited some Latin American countries from speaking out against 
regional abuses, but Latin America is truly stepping up to the 
plate and taking a strong stance against our neighbor.
    Mr. Abrams, what was the tipping point for Latin American 
States that have called for Maduro to step down and how is the 
U.S. working to unify this coalition of hemispheric States to 
stand against human rights abuses in Venezuela?
    Mr. Abrams. I think the tipping point has really been 
Maduro conduct, the conduct of the government. And when 
Venezuelans in the National Assembly came together behind 
Interim President Guaido, that I think was the moment when--and 
I agree with you, it is really quite----
    Mrs. Wagner. Remarkable.
    Mr. Abrams [continuing]. Remarkable to see so many 
countries of Latin America, and also in Europe, which is 
against their usual practice, you know----
    Mrs. Wagner. Correct.
    Mr. Abrams [continuing]. To come forward and recognize him.
    We are in touch with really all of them constantly as we 
talk about now, for example, we had the Lima Group meeting; we 
had the meeting in Ottawa. We have tomorrow a humanitarian 
assistance meeting hosted by the OAS. So, there is a constant--
--
    Mrs. Wagner. To that point, Mr. Abrams--and I do not mean 
to interrupt--but, as a followup, I know that the Organization 
of American States has also been uncharacteristically critical 
of Maduro and refused to recognize Maduro's legitimacy last 
month. I understand that Venezuela is seeking to leave the OAS. 
But how can the Organization continue to support free and fair 
democracy in Venezuela? Can the OAS aid the United States and 
these other coalitions in enforcing sanctions on the Maduro 
regime?
    Mr. Abrams. At some point, there may be a credentials fight 
in the OAS because, until there is, the Maduro regime is the 
recognized government, according to the OAS. And we have the 
same problem in New York at the U.N. as well. But, to the 
extent that the Organization can help, particularly on the 
humanitarian side, they are trying to do so.
    Mrs. Wagner. I know OAS last month refused to recognize 
Maduro's legitimacy. So, that is a good development.
    Venezuela has longstanding ties with Hezbollah, an Iranian 
proxy and terrorist organization. Mr. Abrams, to what extent 
does the Maduro regime rely on proceeds from illicit activities 
supported by groups like Hezbollah and drug trafficking 
networks for its survival? What are we doing to address this? 
Thank you.
    Mr. Abrams. The regime has made a great deal of money, and 
higher-ups in the regime have made a great deal of money, over 
the last decade, in particular, out of things like drug 
trafficking. It is very hard for us to address when the 
government in place, of course, is behind all of this and is 
profiting from it, and the people who ought to be engaged in 
law enforcement are, in fact, themselves making money from 
this.
    So, what do we do? We sanction them. We cancel visas in 
some cases. We can try to go after them through criminal 
prosecutions in some cases, and we have. There are some people 
in jail in the United States, Venezuelans, for engagement in 
drug trafficking, people who are connected to the regime. But 
the real solution to this is to get a democratic government in 
place that will fight drug trafficking with us.
    Mrs. Wagner. I thank you.
    My time has expired. I yield back, Mr. Chairman.
    Chairman Engel. Thank you very much. Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you to our witnesses.
    We have all watched in horror as the Maduro regime has 
destroyed Venezuela's economy, starved its people, and engaged 
in widespread corruption and repression. We all want a better 
future for the people of Venezuela and want to end this manmade 
humanitarian crisis. And we all believe that the Venezuelan 
people have the right to pick their own leaders, a right Maduro 
has denied his people by refusing to hold free and fair 
elections.
    However, we must be very careful, in my opinion. It is not 
the job of the United States to choose leaders in other 
countries. The United States has a long and not-all-together 
positive history of involvement in Latin America, which I 
believe you are all familiar with.
    And each transition in Venezuela must be truly democratic 
and led by the people of Venezuela. The United States must work 
with the National Assembly and other governments in the region 
in a supporting role.
    And I want to turn to my first series of questions because 
I am concerned by continuing comments from the Trump 
administration, noting that the use of military force is, as 
the President said, ``an option''. And so, for you, Mr. Abrams, 
my first question is, we have not, of course, the Congress of 
the United States has not declared war on Venezuela. Correct?
    Mr. Abrams. Correct.
    Mr. Cicilline. Is there an existing statutory authorization 
that would allow for a military intervention in Venezuela? Yes 
or no?
    Mr. Abrams. Not to my knowledge.
    Mr. Cicilline. Has Venezuela attacked the United States, 
its territories or possessions, or its Armed Forces?
    Mr. Abrams. No.
    Mr. Cicilline. Has the administration increased troop 
deployments to countries, including Colombia, neighboring 
Venezuela at any point in the last month?
    Mr. Abrams. I do not believe so.
    Mr. Cicilline. Are there currently any plans to, or 
discussions about, moving additional combat troops to Colombia 
or any other country that neighbors Venezuela?
    Mr. Abrams. Not to my knowledge.
    Mr. Cicilline. Is anyone at the White House, the National 
Security Council, the Department of Defense, or any other 
agency, making plans for U.S. military engagement in Venezuela?
    Mr. Abrams. That is a question I cannot answer. I know of 
no such planning, but----
    Mr. Cicilline. Well, consistent with the War Powers Act, I 
have introduced legislation that expressly prohibits the 
administration from taking military action in Venezuela without 
consulting Congress. Will you pledge that the Trump 
administration will not take any military action regarding 
Venezuela without consulting with Congress, in accordance with 
the War Powers Act?
    Mr. Abrams. I do not know that I can answer that question, 
Mr. Cicilline. A series of Presidents, you know, have taken a 
jaundice view, I might say, of the War Powers Act. So, I am 
really not in a position to speak----
    Mr. Cicilline. OK. Well, under our Constitution, as you 
know, only Congress can declare war, and we have neither 
declared war nor granted the administration the authority to 
send the Armed Forces into hostilities in Venezuela. In my 
view, it would be illegal under U.S. law, inappropriate, and 
reckless to attempt a military intervention. The United States 
must show leadership in our hemisphere and we must continue to 
provide aid to suffering Venezuelans.
    But I want to just build on Mr. Keating's question, because 
you said, of the 51 countries in this coalition, we are the 
only one that has threatened the use of military force. And in 
response to a question from Mr. Keating, you said, because we 
are the only one capable of doing it. Surely, you are not 
suggesting the other 50 countries do not have the military 
capability to engage in a military action, if they so elected, 
do you?
    Mr. Abrams. Well, some do and some do not.
    Mr. Cicilline. So, some do? We are not the only ones that 
have that ability.
    Mr. Abrams. We have not threatened military action in 
Venezuela.
    Mr. Cicilline. You said we are not the----
    Mr. Abrams. I mean, all options are on the table.
    Mr. Cicilline. My question is, we are not the only one that 
has that capability? So, when you said that to Mr. Keating, 
that was not accurate?
    Mr. Abrams. We are the only one with the kind of 
capability, obviously, that----
    Mr. Cicilline. OK, but others have military capability and 
have not made the same assertion of that being an option? Isn't 
that correct?
    Mr. Abrams. I am actually not sure of the answer to that, 
of what other governments have said.
    Mr. Cicilline. OK. So, Mr. Abrams, what is particularly 
concerning to me is that, in light of the fact there is no 
legal authority to express the use of military force as an 
option, it is unclear to me how the President or anyone in the 
administration can claim it is an option on the table, because 
it is not. And to the extent that we are suggesting that it is, 
we are misleading the international community or misleading the 
people in Venezuela. So, I urge you to take back the message to 
the administration that it is not authorized and not helpful.
    And I would now like to turn to Mr. Olive to talk a little 
bit about the politicization of aid. Is it true that, 
historically, American humanitarian assistance has been offered 
on the basis of need alone?
    Mr. Olive. Yes, correct.
    Mr. Cicilline. And would you say that, in order to provide 
lifesaving assistance in war zones and dangerous areas, 
humanitarians need to be able to operate in a neutral and 
apolitical way?
    Mr. Olive. Correct.
    Mr. Cicilline. And is it true that the United States, 
through USAID, is prepositioning humanitarian aid in the border 
of Venezuela?
    Mr. Olive. Yes, we are.
    Mr. Cicilline. Do you have any concerns that tying 
humanitarian assistance to a particular political outcome could 
have unintended consequences or harm our ability to deliver 
assistance in Venezuela or to other countries? And what steps 
is the administration taking to ensure that aid does not become 
a flash-point?
    Mr. Olive. Administrator Green has said we will always, as 
the U.S. Government, be ready to help those in need. There are 
people in need in our hemisphere right now as a result of this 
crisis, and we are preparing--we already are supporting them in 
these border areas. We are doing what we can to build the 
capacity in-country to receive and distribute aid securely and 
efficiently, and be able to monitor those distributions, and 
that is our focus.
    Chairman Engel. Thank you.
    Mr. Cicilline. I yield back.
    Chairman Engel. Mr. Wright.
    Mr. Wright. Thank you, Mr. Chairman.
    I want to thank all three of you for being here today. And, 
Mr. Abrams, I am very glad you are here. I agree with our 
ranking member that you are exactly the right person for the 
job.
    Mr. Abrams. Thank you.
    Mr. Wright. I have always believed that it is ill-advised, 
if not self-defeating, to broadcast to ruthless dictators what 
the United States is willing or unwilling to do; that it is a 
mistake to tell someone like Maduro that we are willing to use 
a manual screwdriver, but never a power drill; and that, in 
fact, we should not remove any tools from the toolbox.
    My question, Mr. Abrams, is, does the War Powers Act 
require that the President of the United States get permission 
from Congress to even speak about using military force?
    Mr. Abrams. I do not believe so.
    Mr. Wright. I did not think so. And is it not true that 
military action is always an option, unless Presidential action 
triggers the War Powers Act and the Congress says no?
    Mr. Abrams. Well, I think that is correct.
    Mr. Wright. That is what I thought. Thank you very much.
    I yield back.
    Chairman Engel. All right. Thank you. Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    I am going to continue asking questions in the same line as 
my colleagues, Mr. Keating and Cicilline. And I do not want any 
of this to be construed as--you know, I think what the Chavez 
regime and the Maduro regime have done to Venezuela is an 
absolute disaster and the humanitarian crisis that they have 
created is a disaster, and we have to do everything to support 
the people of Venezuela. But our Framers, by their genius and 
design, created separation of powers, keeping the Nation's 
purse and sword separate.
    Congress is empowered to declare war, provide for and 
regulate the Armed Forces. The President, as Commander-in-
Chief, has the responsibility to direct the Armed Forces as 
they conduct the hostilities.
    We have been talking a little bit about the War Powers 
Resolution. It is absolutely very clear it provides the 
President to introduce U.S. Armed Forces into situations of 
hostilities or imminent hostilities as exercised only pursuant 
to, one, a declaration of war; two, specific statutory 
authorization, or, three, a national emergency created by an 
attack upon the United States, its territories or possessions, 
or its Armed Forces.
    Mr. Abrams, my colleagues have already pressed you a little 
bit on the use of military force in Venezuela. I would like to 
ask you a yes-or-no question. Do you agree with the War Powers 
Resolution which States, quote, ``The President in every 
possible instance shall consult with Congress before 
introducing United States Armed Forces into hostilities or into 
situation where imminent involvement in hostilities is clearly 
indicated by the circumstances, and after every such 
introduction shall consult regularly with the Congress until 
United States Armed Forces,'' until they ``are no longer 
engaged in hostilities or have been removed from such 
situations.''? Yes/no?
    Mr. Abrams. I cannot give you a yes-or-no answer to that. I 
mean, this is a long debate, as you know better than I. 
Presidents, including the most recent President, President 
Obama, have used force in cases where there was a big debate 
about the War Powers Act. And Presidents sometimes have said, 
``I'm submitting a report, but I'm not sure that I'm obliged to 
do so.'' I just cannot get into that debate today. I am not 
prepared to do so.
    Mr. Bera. Again, I think the War Powers Act is very clear 
in when the President is authorized to introduce U.S. forces.
    Mr. Olive, I am going to shift to you. As I mentioned prior 
to the hearing, I also do publicly want to acknowledge the men 
and women that serve this country every day from our State 
Department, our diplomats, our aid and development folks. We 
are proud of them, and I think we cannot acknowledge their work 
and contribution and patriotism to our country enough.
    Can you give me a quick assessment of how bad the 
humanitarian crisis in-country is at this juncture and how much 
worse it has gotten over the past few weeks?
    Mr. Olive. Thank you, Congressman, and thank you for your 
kind words to my colleagues. I will definitely take that 
message back to them.
    Mr. Bera. Thank you.
    Mr. Olive. The situation is deteriorating on a daily basis. 
The reports that we have gotten from inside the country are 
hospitals are drastically reducing their supplies and not able 
to have surgical equipment, vaccines, et cetera, available to 
even do routine types of surgeries, let alone more complicated 
ones.
    We are very concerned about the power grid. There are 
numerous power outages throughout the country that, of course, 
affect then, hospitals and clinics, et cetera.
    Food is available, but it is controlled by the regime and 
used as a tool. And that is something that is deteriorating the 
country as well. So, people are having trouble getting food. We 
are hearing of increasing amounts of malnutrition amongst 
infants in being able to get the nutrients that they need at 
those early stages of life.
    So, yes, our reports are pretty steady that this is 
declining on a daily basis.
    Mr. Bera. Well, thank you.
    In my limited time, Mr. Abrams, given this deterioration 
and the circumstances on the ground, and given the unique 
situation where the Venezuelan military really does have a lot 
of power in terms of which direction things go, have you seen a 
shift in open sources that suggests the military is now moving 
away from Maduro or support for Maduro is changing?
    Mr. Abrams. I think we have seen some indications of that. 
It is probably a subject better discussed in closed hearing.
    Mr. Bera. Great. Thank you.
    Chairman Engel. Thank you.
    Mr. Bera. And I will yield back.
    Chairman Engel. Mr. Reschenthaler.
    Mr. Reschenthaler. Thank you, Mr. Chairman.
    And thanks to everybody who came in today to testify.
    Mr. Abrams, as a veteran of the Iraq War, I just want to 
thank you for everything that you did in service of the 
country.
    Mr. Abrams. Thank you.
    Mr. Reschenthaler. Thank you.
    Over the past several months, we have witnessed the brave 
people of Venezuela rise up against the despot and dictator 
Nicolas Maduro. Since Maduro's rise to power in 2013, Venezuela 
has been plagued with poverty, death, and misery. The regime's 
authoritarian role and socialist policies have led to over 3 
million Venezuelans fleeing the country, 90 percent of the 
population living below the poverty line, and 300,000 children 
at risk of starvation. It is one of the most violent countries 
in the world, rampant with murder. And hyperinflation is 
expected to reach 10 million percent by the end of 2019. 
Venezuela is in the midst of an extreme humanitarian crisis 
that must be addressed immediately.
    Mr. Abrams, how have the socialist economic policies of the 
Maduro regime led to Venezuela's collapse?
    Mr. Abrams. I would say it was a combination of 
mismanagement, corruption, and policy. For example, what has 
happened with PDVSA? Instead of treating it as a private 
company, what they have done is basically looted it and put all 
sorts of regime supporters in there. There is no State of law 
in Venezuela, So that private property, in a sense, really does 
not exist. If the regime does not want you to have private 
property, they will just take it away from you. So, it has been 
a disastrous downward spiral.
    Mr. Reschenthaler. What are the core functions of the 
Maduro relationship with Cuba, Russia, and China?
    Mr. Abrams. Well, I think in the case of China and Russia, 
they have gotten a lot of money. That is enormous loans, tens 
of billions of dollars. Cuba is different. Obviously, they do 
not have any money to give. What they give is people, largely 
intelligence and military people, to surround this regime and 
act as a kind of loyalist corps. As Venezuelans become more and 
more disillusioned with this regime, Maduro surrounds himself 
with Cubans who he trusts more than his own people.
    Mr. Reschenthaler. Do you see a situation arising where the 
United States would become involved militarily in Venezuela? 
And if you do see that, how do you foresee that scenario 
playing out?
    Mr. Abrams. I do not see it. I do not see it. And one of 
the things that is sort of notable about the discussion about 
the use of force is that that is not the policy of the United 
States. The policy is to pursue humanitarian, economic, 
diplomatic paths forward to try to support the Venezuelan 
people's desire for democracy. When we say all options are on 
the table, that is because all options are always on the table. 
That is not the preferred route and that is not the route we 
are going down.
    Mr. Reschenthaler. Thank you, Mr. Abrams.
    Mr. Olive, what is the best way for the U.S. to support 
Venezuela's democratic opposition? Is the United States ready 
to assist the organization with free and fair elections?
    Mr. Olive. Thank you, Congressman, for your question.
    And absolutely. Your body has provided now $15 million in 
Fiscal Year 2018, and a portion of that can go to ensure that 
an electoral process is fair and transparent. And we will work 
alongside our State colleagues on whatever assistance may be 
needed, but it will have to be requested, and, as the Special 
Representative said, Venezuelan-led.
    Mr. Reschenthaler. If we do have a future democratic 
government in Venezuela, are we ready to engage in assisting 
the new free nation, such as nation-building?
    Mr. Olive. We are looking at different scenarios. Again, it 
has got to be Venezuelan-led. They will determine their 
priorities. They are part of our hemisphere. We stand ready to 
assist. But the most important thing is to get the government 
and the power back in the hands of the Venezuelan people.
    Mr. Reschenthaler. Thank you, Mr. Olive.
    And I yield back the remainder of my time.
    Chairman Engel. Thank you. Mr. Castro.
    Mr. Castro. Thank you, Chairman.
    I have in the past supported sanctions against the Maduro 
regime because, as Mr. Meeks mentioned, I do believe in many 
ways that Mr. Maduro has oppressed his people. At the same 
time, I believe that the role of the United States is to 
promote democracy, freedom, and human rights around the world. 
The role of the United States is not to handpick the next 
leader of Venezuela.
    Mr. Abrams, I have a question for you. My question is 
whether you are aware of any transfers of weapons or defense 
equipment by the U.S. Government to groups in Venezuela opposed 
to Nicolas Maduro since you were appointed Special 
Representative for Venezuela.
    Mr. Abrams. No.
    Mr. Castro. And I want to be respectful of you, but also 
honest. The reason that I ask that question, there has been a 
McClatchy news report of such an incident. Are you aware of 
that news report?
    Mr. Abrams. Saw the report, yes.
    Mr. Castro. I ask this question because you have a record 
of such actions. In Nicaragua, you were involved in the effort 
to overtly provide lethal aid to the Contras against the will 
of Congress. You ultimately pled guilty to two counts of 
withholding information from Congress in regard to your 
testimony during the Iran-Contra scandal. So, I ask you the 
question, can we trust your testimony today?
    Mr. Abrams. Well, you can make that decision for yourself, 
Mr. Castro. I can tell you that the answer to your question is 
no. It is a simple and unequivocal no. There has been no such 
transfer of arms.
    Mr. Castro. I also want to ask you--I mentioned the 
promotion of democracy and the fact that the Venezuelan people 
have to pick their own leader--what is the administration's 
strategy for encouraging elections as soon as possible in 
Venezuela?
    Mr. Abrams. Well, that is the heart really of 
administration policy. That is, after the Maduro regime, a 
short transition to an election, and that is the view of all of 
the 51 nations that are supporting Mr. Guaido.
    I completely agree with the way you started. It is not for 
us to choose the next President of Venezuela. It is for 
Venezuelans. We can help, as a lot of other countries can help, 
in facilitating a free election, because, as you know, there is 
a lot of experience, the National Democratic Institute, the 
International Republican Institute, Freedom House. And 
equivalents in other countries are really quite good at giving 
assistance.
    Mr. Castro. Also, I know that you have spoken about the 
fact or you mentioned that all options are on the table. And in 
a private setting, we had a conversation about that, which I 
will not get into. But I want to reiterate one point and one of 
the reasons that I disagree with that approach. The reason that 
I disagree with the statement and the approach is because I 
believe that it gives license to countries like China and 
Russia to, then, further engage with Venezuela and do it in the 
name of protecting Venezuela sovereignty by drumming up the 
idea that the United States is going to invade the Nation of 
Venezuela. I strategically think that it was a bad statement.
    With that, I yield back.
    [Applause.]
    Chairman Engel. Thank you.
    The Chair will remind all persons in the audience that any 
manifestation of approval or disapproval of proceedings is in 
violation of the rules of the House and its committees.
    Mr. Burchett.
    Mr. Burchett. Thank you, Mr. Chairman.
    I guess the good thing, or the bad thing about being a 
freshman is all the good questions already get asked, but I 
still have a couple that have not been asked.
    I think it has been established that Cupara.ta, the 
Cupara.tan regime is in line with Maduro. How would you 
recommend that we could separate that?
    Mr. Abrams. I do not think that lectures to the Cupara.tans 
are going to have much impact. I think, in fact, that is going 
to happen when there is a freely elected democratic government, 
and Venezuela will just send them home.
    Mr. Burchett. I agree with you. Thank you.
    Could you all followup just a little bit more detail on the 
Russian influence in Venezuela and what you would recommend 
that the United States would do to limit that influence? We 
talk a lot about sanctions and all that, but, I mean, honestly, 
that is sort of like my momma saying, ``I'm going to tell your 
dad,'' and then, dad would say, ``I'm going to tell your 
momma.'' And then, you know, kids, they shriek in horror, but, 
in reality, they just go off and giggle a little bit.
    Mr. Abrams. Well, there have been some conversations with 
the Russians, and I am sure there will be more, but I cannot 
say they have done any good thus far. Again, it is partly a 
matter of just seeing Venezuela move to a freely elected 
democratic government, which can then make independent 
decisions about the relationships it wants to have.
    For example, when sanctions come off, they will not need to 
turn to Russia to say, ``How do we deal with these 
sanctions?'', through Rosneft or through Russian banks or 
anything like that. The Russians I think, at this point are not 
putting any more money into Venezuela because they are worried 
about getting paid back the money they have already put in. And 
once there is a freely elected government that can deal, again, 
with the World Bank and the IMF, and a broad international 
program and support, I think the Russian role will diminish 
very quickly.
    Ms. Oudkirk. And, Mr. Congressman, if I can add onto that, 
if we look at Russian involvement in the hydrocarbon sector, 
one of the reasons why this administration made a decision to 
license the continuing involvement of U.S. companies----
    Mr. Burchett. Right. Can I ask you a question? I already 
know what hydrocarbons means, but Mr. Pence does not. Could you 
explain that to him?
    Ms. Oudkirk. Oil and gas.
    Mr. Burchett. OK. Thank you.
    Ms. Oudkirk. And so, one of the reasons why we licensed the 
continued involvement of U.S. companies in upstream oil 
production in Venezuela was because the oil and gas sector is 
the key pillar of the Venezuelan economy, and it will be going 
forward. And keeping the U.S. corporate presence there, with 
their best practices, with their adherence to all the sorts of 
practices that we expect here in the United States, is, we 
believe, one of the best ways to ensure that in the future 
Venezuela is able to return to prosperity and sort of an 
economy that functions normally.
    Mr. Burchett. Where we have seen that they have 
nationalized these industries, we have seen the prices, in 
fact, spiral upwards, is that correct? Not artificially, but 
legitimately?
    Ms. Oudkirk. It depends really, but I think what we are 
focused on here, we are looking at an oil sector that is in 
profound crisis, and the general economic crisis in Venezuela 
exacerbates that. The trained staff are voting with their feet. 
They are going to other countries. Key equipment is being 
stripped of copper wire, so electricity cannot be transmitted. 
So, it is all knitted together, but we do believe that Western 
involvement in the upstream oil sector will leave us positioned 
to have both the U.S. private sector and the U.S. Government 
assist with eventual economic recovery. And we are a 
counterweight to the Russian and the Chinese investment, which 
is otherwise very prevalent in that industry.
    Mr. Burchett. Thank you.
    Thank you, Mr. Chairman. I yield the remainder of my time.
    Chairman Engel. Thank you.
    Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    President Trump seems averse to international cooperation 
and multilateral agreements. He seems to prefer go-it-alone, 
shoot-from-the-hip, mano-a-mano type of diplomacy, such as it 
exists. But some of us believe that, if we are going to be 
successful in helping Venezuela survive and recover through 
political means, not military means, and through humanitarian 
assistance, we are going to need to work with the Lima Group 
and with OAS. So, I would ask you, Mr. Abrams, do not you think 
that your role on the National Security Council in the George 
W. Bush Administration during the 2002 Carmona coup in 
Venezuela hurts your credibility with Latin American countries 
and makes it difficult, if not impossible, for you to serve now 
as a Special Representative of Venezuela, to foster these kind 
of agreements?
    [Applause.]
    Chairman Engel. Excuse me. The gentlewoman will suspend.
    Mr. Abrams. No.
    Chairman Engel. The Chair will remind all persons in the 
audience that any manifestation of approval or disapproval of 
the proceedings is in violation of the rules of the House and 
its committees. So, I please ask the audience to cooperate or 
else we will have to have people removed, which I would not 
like to do.
    Go ahead and respond.
    Mr. Abrams. My answer is no.
    Ms. Titus. And you do not think that your appointment sends 
the wrong message to our allies in Latin America?
    Mr. Abrams. Well, I have been in contact with an awful lot 
of them. I have talked to a lot of people on the phone in the 
last couple of weeks. I have met with a bunch of foreign 
ministers in the last couple of weeks. These have been very 
good meetings and we are all cooperating because we all want 
the same thing in Venezuela, which is democracy.
    Ms. Titus. Well, I hope so, too, but I think your ``no'' 
puts you in the minority.
    I will go from there to a broader question. What happens if 
Maduro is ousted? Will he, then, go to Russia or to Cuba, or 
will we have a truth commission? Will he be imprisoned? What 
about these corrupt oligarchs we have heard about? What about 
the heads of the military? And what is going to be the U.S.'s 
position at that point? Would some of you comment on that?
    Mr. Abrams. Well, I would say, first, these are, for the 
most part, Venezuelan decisions. They are decisions that a new 
democratic government is going to have to make. The decision on 
where Maduro goes is for Maduro. Does he want to go to Cuba or 
Russia or someplace else?
    But, you know, there have been a lot of democratic 
transitions in the world, happily, in the last few decades. 
Each one is a different case. They have to make these decisions 
internally about how much do they want to do in prosecuting 
people. Do they want to have amnesties? And, you know, the 
National Assembly has already passed an amnesty bill. These are 
not our decisions. We are not Venezuelans.
    Ms. Titus. I appreciate that, but we often hear about some 
subversive activity that encourages one kind of approach or 
another. And I suspect that would be the case again, too.
    Comment about what we do after the fact, once Maduro goes?
    Mr. Olive. Yes. From the development standpoint, we are 
prepared to help the new government in its priorities of 
rebuilding the country. USAID's assistance is very public. We 
will use our normal mechanisms that we have done in other 
countries, and we will be transparent and happy to share any 
information that we have, when we reach that day where we are 
having plans and we have responded to a request from the 
government.
    Ms. Titus. We have heard a lot about the security folks 
from Cuba. What about the teachers and the doctors that came 
from Cuba to Venezuela? Will we be able to work with them after 
the fact?
    Mr. Abrams. My guess would be that many of them will be 
withdrawn. They are sent there, in large part, as a political 
message of solidarity with Maduro. So, after Maduro--again, 
that is a decision for the Venezuelans to make, not for us.
    Ms. Titus. Thank you, Mr. Chairman. I yield back.
    Chairman Engel. Thank you, Ms. Titus. Mr. Pence.
    Mr. Pence. Thank you, Mr. Chairman.
    To all the witnesses today, thank you for your time.
    As a Marine, I am proud when America plays a leadership 
role with our allies and partners in support of democratic 
principles and the rights of free people in Venezuela and 
around the world. As Americans, there is no higher calling in 
our diplomatic endeavors than to stand with free people against 
tyranny.
    I want to focus on how United States leadership has help 
build a coalition of support for the Venezuelan people. Over 40 
countries have now recognized Juan Guaido as the Interim 
President of Venezuela, a number that has effectively doubled 
in recent weeks. I am proud that the United States was among 
the first to stand alongside Interim President Guaido<greek-e>d 
the Venezuelan people.
    I also believe that it is important to provide support to 
Venezuela's neighbors like Colombia, who are generously hosting 
millions of Venezuelans fleeing the country and the crisis.
    Mr. Olive and Mr. Abrams, Mr. Abrams, you Stated more than 
3 million Venezuelans, more than 10 percent of Venezuela's 
population has been forced to flee their country to survive. 
You also mentioned today in your testimony, and I quote, 
``Maduro cannot weather much longer.'' My question is, how 
concerned are you about the effects of this on neighboring 
countries and what are the implications of this on the larger 
region?
    Mr. Abrams. Well, I can begin the answer. There is a steady 
outflow. That 3 million, or it may even be 3.6 million, grows 
every day. And if the regime stays in power throughout this 
year, it can reach 5 million. So, we will be hearing a lot more 
from Brazil and Peru, and especially Colombia, about the need 
for help in dealing with continuing massive outflows of 
Venezuelans. This will stop only if there is a democratic turn 
in Venezuela and a beginning of economic recovery.
    Mr. Olive. Congressman Pence, thank you for your question.
    We have been in constant contact, especially with the 
Colombian government, on these issues and it is supportive of 
them. Administrator Green is meeting with President Duque 
tomorrow to have this very conversation. One part of it will be 
how can we continue to assist Colombians todeal with the amount 
of Venezuelans migrating into Colombia at this time. We are 
concerned about it and are prepared to go shoulder to shoulder 
with Colombians.
    Mr. Pence. Is there any concern that the blockade is going 
to attract even more people faster with the humanitarian 
supplies sitting across the border?
    Mr. Abrams. I think it is a concern, and it is one of the 
reasons why we all want to get the aid in. Venezuelans need it 
very, very badly.
    Mr. Olive. When Administrator Green and I were there in 
July, it was clear that they were saying, and we saw it 
firsthand, that 90 percent of the Venezuelans that were coming 
into Colombia to get support were going back into Venezuela. 
So, they were just coming in to be able to get the vaccines or 
health care or food or generate some income to be able to go 
back into the country. And we expect that to continue until 
when we are allowed to bring in our humanitarian assistance 
into the country in a safe and efficient manner, in a manner 
that we can monitor where it goes and make sure that it gets to 
the people who are in need of it most.
    Mr. Pence. Thank you. I just want to say I am proud that 
President Trump and Secretary Pompeo continue to speak with 
clarity and provide the leadership our values require on the 
situation in Venezuela.
    Thank you, Mr. Chairman. I yield back.
    Chairman Engel. Thank you.
    Mr. Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman.
    I think that we can say today that probably all, if not 
most, of the members of this committee are really concerned 
with the violence in Venezuela, the humanitarian crisis in 
Venezuela affecting thousands of families that has led to an 
unprecedented migration of Venezuelans throughout the region. 
And, of course, the presence of Hezbollah there as well. I, 
myself, have cosponsored legislation to address that particular 
problem.
    But, Mr. Abrams, many of our allies have expressed concern 
of your appointment to deal with this problem. Some have 
characterized it as being perhaps like appointing Exxon to lead 
a discussion on the Green New Deal or maybe even appointing MBS 
to lead a discussion on fairness in journalism and 
accessibility to journalism.
    Do you feel that your past actions in Iran-Contra have 
permanently impaired your ability to fairly and transparently 
deal in the region, since we all know the outcome of what 
happened then? Do you feel that that is a major problem, 
baggage that you bring to the table?
    Mr. Abrams. I do not, and now I have been doing this job 
for two whole weeks. And I can tell you that Members of 
Congress have raised it. No Latin American of any nationality 
with whom I have dealt has raised it. And we have had lots and 
lots of discussions about how we are going to promote democracy 
in Venezuela.
    I guess I should say, since I have been attacked now three 
times, in my own defense, if you look at the Reagan record of 8 
years, when we came in, there were military dictatorships all 
over Latin America.
    Mr. Espaillat. Mr. Abrams, that is not an attack. That is a 
fact of history.
    Mr. Abrams. And when we left in country after country after 
country there had been transitions that we supported. Chile is 
a very good example. So, I think it is actually a record of 
promoting democracy, and I think a lot of Latin Americans know 
the----
    Mr. Espaillat. Respectfully, I differ with you. I think it 
is a fact of history. We should not dig our heads in the sand 
and make believe that this never happened because it did. And 
you were at the helm of that and you----
    Mr. Abrams. I was at the helm of promoting democracy in 
Latin America.
    Mr. Espaillat. Well, you may want to characterize it that 
way, but I do not. I think you were involved in the Iran-Contra 
deal, and I think that permanently damages you to be a fair and 
impartial arbiter in a conflict that is leading to a 
humanitarian crisis of unprecedented levels in Venezuela.
    So, I want to get to my next question, which is, do you 
believe that there could be a peaceful, diplomatic solution to 
this crisis? And if so, has our Nation engaged the Vatican, the 
United Nation, Mexico, and Uruguay in their efforts to resolve 
this peacefully without any bloodshed?
    Mr. Abrams. Well, we have had discussions with the Vatican, 
with the U.N. I spoke to the Secretary General actually 
yesterday morning. Mexico and Uruguay are somewhat different 
because they have a different approach, which is the kind of 
dialog with Maduro that has been tried and failed in past 
years, tried by the Venezuelans who are pushing for democracy 
in their own country.
    Mr. Espaillat. And the opposition has in some instances 
asked to be armed. Do you feel that that is a viable for 
protecting themselves or do you feel that arming the opposition 
will lead to a civil war?
    Mr. Abrams. I think it is a terrible idea. I think that the 
question of security for the opposition--well, it is not really 
the opposition. It is now, in our view, the legitimate 
government of Venezuela and the National Assembly. Security for 
them, security for individuals like Interim President Guaido is 
a real issue, but the solution to it is replacing this 
government with the interim government, and then, allowing the 
people of Venezuela to choose their government.
    Mr. Espaillat. Finally, do you feel that there are 
currently any individuals in the armed forces or in government 
that are applicable to receive Magnitsky Act levels of 
sanctions and options?
    Mr. Abrams. Yes, I think there are.
    Mr. Espaillat. And are you willing to share those----
    Mr. Abrams. Not in a public hearing. I think we need to go 
over the names again. But, certainly, some of the people rise 
to that level of human rights violations.
    Mr. Espaillat. Mr. Chairman, let me just, again, reiterate 
my concern for a potential human crisis emerging in the region, 
potential civil war, famine, if we do not go the diplomatic way 
and abandon our old, bad ways of Iran-Contra.
    Chairman Engel. Thank you.
    Mr. Guest.
    Mr. Guest. Thank you, Mr. Chairman.
    Mr. Abrams, in your written testimony you talk about that 
Cuba has provided direct support for Maduro repressive tactics, 
including the recent deployment of its most feared units, the 
Black Wasp. Can you kind of expand upon this military unit and 
what they are doing in the country of Venezuela?
    Mr. Abrams. We have seen Maduro reinforcing his Cuban guard 
corps. Again, it is a lack of confidence in his own people or 
it is a knowledge that his own people want him gone. So, there 
were Cubans. There are Cubans surrounding him. That is the 
palace guard. This special forces unit has now come in. This is 
in the last few weeks. And I think it is really quite striking 
that he does not trust the Venezuelan people or the Venezuelan 
armed forces.
    Mr. Guest. And so, the Cubans have sent special forces 
units into Venezuela to prop up this regime?
    Mr. Abrams. That is correct.
    Mr. Guest. And then, since January the 23d, we have seen a 
host of nations join us in our ability to affect change in the 
Nation of Venezuela. Actually, one of the nations that has yet 
to take a position one way or the other--and you touched on it 
very briefly a moment ago--was Mexico. And again, can you kind 
of talk about why they have failed to take a position one way 
or another on this particular important matter?
    Mr. Abrams. They are quite isolated in Latin America, you 
are right, when you look at the other larger democracies. I 
think I would say it is just the ideology. It is an old view on 
the part of their President that this is all about American 
interventionism. And when we say, well, it isn't; you have got 
51 countries, including most of the major democracies in Latin 
America, plus Canada, saying this, this isn't about the United 
States and Venezuela. We have not been able to persuade them, 
at least to this point.
    Mr. Guest. And you also talk about in your written 
testimony that Maduro and his cronies are conspiring to prevent 
lifesaving assistance from reaching the people of Venezuela. 
Can you expand on that just briefly as well?
    Mr. Abrams. Yes. Well, perhaps Mr. Olive could do so as 
well. But what we are seeing visibly in the blocking of that 
bridge is a policy on the part of the Maduro regime. And Maduro 
himself has said, ``We do not need humanitarian assistance.'' 
He is completely blind to the suffering of the Venezuelan 
people.
    Mr. Guest. And you also talked about in your written 
testimony that they have also canceled gasoline shipments, so 
that you would be unable to transport humanitarian aid. Is that 
correct?
    Mr. Abrams. Do you want to comment on that? I have not seen 
that exact report.
    Mr. Olive. We have not seen it as a major concern now. If 
we have full access to being able to get things into the 
country, we will overcome that, whatever fuel shortages there 
may be.
    Mr. Guest. And so, we currently have, for lack of a better 
term, a dictator who is refusing humanitarian aid and a country 
of great crisis, and has also aligned himself with the Cuban 
government, to the point that there are Cuban special forces 
currently in Venezuela at this time. Is that correct?
    Mr. Abrams. That is correct.
    Mr. Guest. I would yield back, Mr. Chairman.
    Chairman Engel. Thank you.
    Ms. Omar.
    Ms. Omar. Thank you, Chairman.
    Thank you all for being here and thank you for your 
testimoneys.
    Mr. Abrams, in 1991, you pleaded guilty to two counts of 
withholding information from Congress regarding your 
involvement in the Iran-Contra affair, for which you were later 
pardoned by President George H.W. Bush. I fail to understand 
why members of this committee or the American people should 
find any testimony that you give today to be truthful.
    Mr. Abrams. If I could respond to that----
    Ms. Omar. It was not a question.
    Mr. Abrams. I----
    Ms. Omar. That was not, that was not a question.
    Mr. Abrams. I would----
    Ms. Omar. I reserve the right to my time.
    Mr. Abrams. It is not right----
    Ms. Omar. That was not a question.
    Mr. Abrams [continuing]. That members of this committee can 
attack a witness who is not permitted----
    Ms. Omar. On February 8th----
    Mr. Abrams [continuing]. To reply.
    Ms. Omar. That was not a question. Thank you for your 
participation.
    On February 8th, 1982, you testified before the Senate 
Foreign Relations Committee about U.S. policy in El Salvador. 
In that hearing, you dismissed as communist propaganda report 
about the massacre of El Mozote in which more than 800 
civilians, including children as young as 2 years old, were 
brutally murdered by U.S.-trained troops. During that massacre, 
some of those troops bragged about raping a 12-year-old girl 
before they killed them, girls before they killed them. You 
later said that the U.S. policy in El Salvador was a ``fabulous 
achievement''. Yes or no, do you still think so?
    Mr. Abrams. From the day that President Duarte was elected 
in a free election to this day, El Salvador has been a 
democracy. That is a fabulous achievement.
    Ms. Omar. Yes or no, do you think that massacre was a 
``fabulous achievement'' that happened under our watch?
    Mr. Abrams. That is a ridiculous question, and I----
    Ms. Omar. Yes or no?
    Mr. Abrams. No.
    Ms. Omar. I will----
    Mr. Abrams. I am sorry, Mr. Chairman.
    Ms. Omar [continuing]. Take that as a yes.
    Mr. Abrams. I am not going to respond to that kind of 
personal attack, which is not a question.
    Ms. Omar. Yes or no, would you support an armed faction 
within Venezuela that engages in war crimes, crimes against 
humanity, or genocide, if you believed they were serving U.S. 
interest, as you did in Guatemala, El Salvador, and Nicaragua?
    Mr. Abrams. I am not going to respond to that question. I 
am sorry. I do not think this entire line of questioning is 
meant to be real questions. And so, I will not reply.
    Ms. Omar. Whether under your watch a genocide will take 
place and you will look the other way because American 
interests were being upheld is a fair question, because the 
American people want to know that anytime we engage a country 
that we think about what our actions could be and how we 
believe our values are being furthered. That is my question. 
Will you make sure that human rights are not violated and that 
we uphold international and human rights?
    Mr. Abrams. I suppose there is a question in there, and the 
answer is that the entire thrust of American policy in 
Venezuela is to support the Venezuelan people's effort to 
restore democracy to their country. That is our policy.
    Ms. Omar. I do not think anybody disputes that. The 
question I had for you is that, does the interest of the United 
States include protecting human rights and include protecting 
people against genocide?
    Mr. Abrams. That is always the position of the United 
States.
    Ms. Omar. Thank you. I yield back my time.
    Chairman Engel. Mr. Watkins.
    Mr. Watkins. Thank you, Mr. Chairman.
    My questions are for Mr. Abrams. Sir, it is well known that 
members of Maduro regime have ties to drug trafficking. Now we 
are hearing allegations of ties with terrorist organizations, 
including Hezbollah and FARC. Can you walk me through the 
nature of those ties and what kind of concern that poses to the 
U.S. security?
    Mr. Abrams. Well, some of this I guess we should do in a 
closed hearing. But the group that stands out most is the ELN, 
the Colombian terrorist group that is harbored in Venezuela. 
They have not just escaped into Venezuela. I mean, that is 
government policy on the part of the Maduro regime. They also 
have, obviously, extremely close ties to Cuba. There is a 
Hezbollah presence all over Latin America, and I believe they 
are engaged in fundraising in Venezuela, and the regime does 
nothing to prevent that. So, these are security concerns that 
are going to exist as along as this group is in power.
    Mr. Watkins. Thank you.
    Is there concerns about the safety and security of U.S. 
diplomats and contractors, and do you know of any steps being 
taken to assure that they are safe?
    Mr. Abrams. Well, there are a lot of Americans in 
Venezuela. The number of official Americans is small, but there 
are a lot of American citizens who live there. Unfortunately, 
we have very limited ability to protect them. We do supply some 
consular services. Every couple of days, we may give out an 
emergency passport to an American. But the staff size is 
limited and our ability to protect people is limited. And so, 
we rely on the regime, actually, which controls the guns to 
make sure that no harm comes to Americans. And we have made it 
clear that that is their responsibility under international 
law.
    Mr. Watkins. Thank you, Mr. Abrams.
    Thank you, Mr. Chairman. I yield back.
    Chairman Engel. Thank you very much.
    Mr. Levin.
    Mr. Levin. Thank you, Mr. Chairman.
    And thanks to the witnesses for coming today.
    First, I would like to followup on the chairman's questions 
about temporary protected status, where we began. Mr. Abrams, 
do you think it is fair to call the humanitarian situation in 
Venezuela dire, given the Venezuelan people's need for basics 
like nutritious food and medical supplies?
    Mr. Abrams. Yes.
    Mr. Levin. I understand, as you mentioned to him, that you 
are discussing designating Venezuela for TPS with others in the 
administration, given that dire situation. While you were 
Assistant Secretary of State for Human Rights and Humanitarian 
Affairs a generation ago, we might say----
    Mr. Abrams. A generation or two.
    Mr. Levin [continuing]. You testified at a hearing before 
the House Judiciary Committee that concerned TPS for 
Salvadorans. At that hearing, you testified, and I quote, 
``Some groups argue that illegal aliens who are sent back to El 
Salvador there meet persecution and often death. Obviously, we 
do not believe these claims, or we would not deport these 
people.'' End quote. Is that correct?
    Mr. Abrams. I take your word for it. You know, it has been 
a while.
    Mr. Levin. Yes, I understand. That was at a hearing before 
the Subcommittee on Immigration, Refugees, and International 
Law of the committee, on a bill numbered H.R. 4477, Temporary 
Suspension of Deportation of Certain Aliens., on April 12th, 
1984.
    And is it correct that, when you testified at that hearing 
in 1984, death squads controlled by the Salvadoran government, 
which had the backing of the United States, were committing 
horrific acts of violence against the Salvadoran people? I do 
not have a lot of time. Were they or were they not, sir?
    Mr. Abrams. The death squads were certainly active, 
although I cannot remember the exact years, but the amount of 
death squad activity came down under President Duarte and under 
American pressure.
    Mr. Levin. Well, just to remind you, as The Atlantic 
pointed out, more than 75,000 Salvadorans were killed in the 
fighting, most of them--most of them--victims of the military 
and its death squads, more than 75,000. ``Peasants were shot en 
masse, often while trying to flee. Students and union leaders 
had their thumbs tied behind their backs before being shot in 
the head, their bodies left on roadsides as a warning to 
others.''
    I would just ask, sir, you, of all people, to use your 
offices to try to help promote TPS for Venezuelans in need.
    Mr. Olive, let me ask you a question. I am the son of an 
official of USAID. So, I also appreciate the work of you and 
your colleagues there.
    It is my understanding that sanctions on the Venezuelan 
State-owned oil company that the Trump administration imposed 
last month are meant to cutoff Maduro's cashflow and force his 
exit. What I want to know is, what is the administration's plan 
if this approach does not work? The Wall Street Journal 
reported last month, quote, ``If the standoff endures, the U.S. 
move could prove devastating for Venezuela's economy which 
relies on oil exports for 95 percent of its hard currency 
income.'' End quote. Which obviously isn't a great thing.
    But my question to you is, what does the Trump 
administration plan to do if these new sanctions squeeze the 
Venezuelan economy, but Maduro remains? Have you examined what 
will happen to the Venezuelan people?
    Mr. Olive. First, Congressman, thank you for your kind 
words to my colleagues. I will take that back to them. Thank 
you.
    Mr. Levin. Thank you.
    Mr. Olive. Most of this, I would defer to the State 
Department. But, from a humanitarian assistance point of view, 
we do see many of these resources that were coming into the 
Maduro regime were not getting to the people, and the ones that 
were were used as a tool, such as their CLAP program, et 
cetera. We do expect the situation to get worse, and that is 
why we are prepositioning goods right now on the border, ready 
to go into Venezuela. And we are prepared to do much more when 
we have access where we can securely and efficiently monitor 
its distribution, and that is what we are prepared to do.
    For the remainder of your question, I will defer to the 
State Department.
    Mr. Abrams. No, I agree with that.
    Mr. Levin. All right. Well, we are very concerned about 
deepening the crisis that we are trying to prevent.
    Let me, finally, Mr. Chairman, just end by I noted, and I 
really appreciate the bipartisanship here, a number of our 
friends on the other side of the aisle have called Venezuela 
``the most violent country in the world'' and ``the most 
dangerous country in the world,'' things like this. I do not 
understand that, if you look at Afghanistan, Syria, Libya, 
Mali, Somalia, Yemen, and South Sudan. I just hope that we 
stick to the facts here. The situation is bad enough as it is.
    Thank you, Mr. Chairman. I yield back.
    Mr. Sires [presiding]. Thank you.
    We now recognize Steve Chabot from Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    Mr. Olive, what is the State of press freedoms in 
Venezuela, and how are we countering the regime's propaganda 
and ensuring that Venezuelans are aware of the support that the 
U.S. and the international community are providing?
    Mr. Olive. Thank you, Congressman, for your question.
    We are providing supporting for independent media. We are 
now up to, with the approval of the congressional notification 
that has now expired, and we can now use our 2018 funding. We 
have spent about approximately $40 million, or that are 
available for--one of the areas is independent media.
    The groups that we are working with, Freedom House, the 
International Republican Institute, the National Democratic 
Institute, NDI, and others, are working to preserve an 
independent media within the country.
    They are very challenged. They have been threatened, and 
some have been arrested, et cetera. Some of their operations 
have been disruptive.
    Administrator Green, on two occasions, one in Washington in 
December, one in July in Miami, met with Venezuelan diasporas 
who raised this issue. And he said, we are a lifeline to many 
of those independent journalists and media, and we will do 
everything we can to remain so.
    Mr. Chabot. Thank you very much.
    And my final question would be for Mr. Abrams as well as 
Ms. Oudkirk. What role do energy and oil continue to play in 
the Maduro regime's ability to maintain the loyalty of 
countries in the region? And, Mr. Abrams, I will begin with 
you.
    Mr. Abrams. I think it is very important. I mean, the only 
real asset that they have got is money that comes from oil 
sales and the oil itself. We have seen that most in the 
Caribbean, where they have been involved in an awful lot of 
activities that have produced a political result. And you can 
see that, actually, in some of the OAS votes, where, 
unfortunately, some democracies in the Caribbean have not 
joined this group of 51 countries around the world in 
supporting Interim President .
    Mr. Chabot. Thank you very much.
    Ms. Oudkirk, would you like to add anything to that?
    Ms. Oudkirk. Yes, Congressman Chabot. The Petrocaribe 
program, which is, I think, what you are referring to, has 
largely wound down, with the exception of sort of concessional 
oil sales or oil deliveries to Cuba.
    However, as Special Representative Abrams noted, there are 
a variety of countries in the Caribbean and Central America who 
have a large sort of debt overhang with PDVSA. And this is 
really a problem. The coercive use of energy sales, whether we 
see it here in the Western Hemisphere or farther afield, is a 
real challenge. And I think the key here is that, as the 
sanctions bite on PDVSA, their ability to use, to take the oil 
proceeds themselves and use them directly as money is going to 
be largely cutoff.
    The United States used to, prior to the sanctions, import 
about 40 percent of Venezuela's oil exports, but we paid about 
75 percent of oil receipts because so much of the other oil 
went for debt-for-oil swaps with China and Russia. So, cutting 
off that financial flow is really a key focus of the sanctions. 
And then, separately, really working with these vulnerable 
economies and jurisdictions close to Venezuela to figure out a 
way for them to extricate themselves from a dependence3 on 
PDVSA is a crucial piece of work that we have in front of us 
going forward.
    Mr. Chabot. Thank you very much. In the interest of members 
making votes, I will yield back, Mr. Chairman.
    Mr. Sires. Thank you, Mr. Chabot.
    We will now recess. Votes have been called. I will urge all 
the members to please come back after the three votes that we 
have. Thank you very much. Just be a little patient.
    [Recess.]
    Mr. Sires. The hearing will come to order.
    Mr. Malinowski.
    Mr. Malinowski. There we go. My voice carries, but that is 
better.
    Let me just start out by saying that, in my view, what we 
are dealing with here is an anti-democratic coup, a slow-motion 
anti-democratic coup that was carried out by the Maduro regime, 
a regime that packed its supreme court with loyalists, that 
tried to render null and void a Congress that was elected by 
the vast majority of the Venezuelan people, that imprisoned and 
tortured Venezuelan citizens who exercised their human right to 
protest against these outrages, that prevented the opposition 
from fielding a candidate against the leader of this regime.
    This is not a left or right issue. This is not an issue 
that should divide us on ideological grounds. If any of us in 
the United States, whether we are liberal or conservative, 
progressive, whatever, experienced that in our country, we 
would be on the streets screaming about it, just as the vast 
majority of Venezuelans are doing.
    And because of that, I am a critic of much of the 
administration's foreign policy, as you guys will not be 
surprised to hear, but I feel like in the case of Venezuela 
this is a policy that, broadly speaking, I can support, and I 
certainly pray for its success, given what has been happening 
to the Venezuelan people.
    I know a number of the issues have been raised already. 
But, with that foundation, I do want to ask Mr. Abrams a 
handful of questions that relate Venezuela to our overall 
approach to the world.
    I think you know, Mr. Abrams, based on your work over many, 
many years, that the one argument that dictators like Maduro 
and Putin and others throw at us all of the time, when we try 
to do the right thing, as I think we are trying to do here, is 
that we are inconsistent, that we aim our democracy and human 
rights policies at our adversaries, or at our ideological 
adversaries, not our friends. Sometimes that is an unfair 
charge; sometimes it is more fair. But I wonder if, as a 
general matter, you would agree that we need to strive, where 
possible, for moral consistency.
    Mr. Abrams. I do agree. I think it is impossible to achieve 
in the end for any administration because----
    Mr. Malinowski. Try for.
    Mr. Abrams [continuing]. We are balancing so many American 
interests. But it is something we are striving for.
    Mr. Malinowski. Would you, then, agree, as a general 
matter--and I know, I am sensitive to the fact you are here 
representing the administration's Venezuela policies; you 
cannot necessarily speak for everything else--but, as a general 
matter, would you agree that, if we are going to be condemning 
a president who is trying to attain absolute power for life, 
contrary to constitutions and the democratic process in 
Venezuela, that we should do so in other countries, such as 
Egypt, when similar situations arise, as a general matter?
    Mr. Abrams. I really should not respond beyond the question 
of Venezuela. It is really not my remit at the Department and 
not while I am up here. You and I go back a ways, and you know 
that my view is, generally, that the United States should be 
supporting the expansion of democracy all over the world.
    Mr. Malinowski. Thank you.
    Would you agree that, if we are going to be condemning 
socialism and effects on the people of Venezuela, that we 
should be condemning even more strongly communism in North 
Korea, rather than talking about how the economy of that 
country might be about to explode in a positive direction?
    Mr. Abrams. I think the human rights record in North Korea 
is pretty well known, but I really in this hearing cannot go 
very far down that path.
    Mr. Malinowski. OK.
    Mr. Abrams. It is just not my responsibility.
    Mr. Malinowski. And would you agree that, if we are going 
to be asking countries to help the millions of Venezuelans who 
are fleeing their country, to take in refugees for the time 
period necessary to give them protection, that we, as a 
country, should also maintain our tradition of keeping our 
doors open to refugees fleeing persecution around the world, as 
a general matter?
    Mr. Abrams. As a general matter, yes. And Venezuelans who 
feel that they would be in danger by going home should apply 
for, and are eligible for, asylum here.
    Mr. Malinowski. Thank you. Again, I would note that the 
refugee numbers have made it difficult to meet the demand from 
Venezuelans and from people fleeing repression and war all over 
the world.
    Thank you so much, Mr. Abrams.
    Mr. Sires. Thank you.
    Congressman Rooney.
    Mr. Rooney. Thank you, Mr. Chairman.
    I would like to, first, thank Secretary Abrams for coming 
here and speaking so candidly and clearly, and bringing the 
great depth and length of his experience in Central America and 
South America to bear on our problems that we face together.
    Mr. Abrams. Thank you.
    Mr. Rooney. The question I have is one that apparently was 
not asked earlier. It is about the political transition and 
Maduro's threatening to hold these early elections, and how big 
a threat would they be to the legitimate National Assembly's 
continuing efforts to institutionalize itself?
    Mr. Abrams. They would be a threat. I think as we saw last 
year in the May 2018 elections, any elections that Maduro funds 
are not going to be credible elections. There needs to be a 
free and fair Presidential election in Venezuela, but it is not 
going to happen if it is under Maduro's control.
    Mr. Rooney. Thank you.
    Mr. Sires. I have a question. The continued outflow of 
Venezuelans outside of Venezuela, how much of a destabilizing 
factor would that have in the region if it continues at the 
rate that it is going now, which is 5,000 a day going into----
    Mr. Abrams. About 5,000 a day net leaving. It will place an 
even larger burden on the countries that are already feeling 
this, and Colombia, of course, most of all. Peru has about 
700,000 Venezuelans, I believe. So, the impact on their health 
system, for example, is very great now, and you are increasing 
this, potentially, by about 60 percent.
    Perhaps Mr. Olive would add a comment?
    Mr. Olive. Yes, we are very concerned about that. 
Administrator Green is meeting with President Duque of Colombia 
tomorrow, and that is going to be one of the topics discussed. 
The Colombians have expressed a great interest that their 
medical systems, schools, and social services are being 
overwhelmed not just in the border area, but throughout the 
country, and are concerned that, if they cannot continue to 
provide those services to their citizens, that it will disable 
or destabilize the country potentially. And that goes for 
Caribbean countries like Trinidad and Tobago as well.
    Mr. Sires. In a meeting earlier that we had with the 
President Duque, he said that they already have 400 cases of 
measles that they have been able to track.
    At this time, I would like to recognize Congresswoman 
Mucarsel-Powell from Florida.
    Ms. Mucarsel-Powell. Thank you, Mr. Chairman. Thank you so 
much for allowing me to participate in this hearing today.
    And, Mr. Elliott Abrams, Sandra Oudkirk, thank you for 
being here today, and thank you, sir, for coming.
    This is an extremely important issue for me personally. I 
am the first South American Representative ever to be elected 
to Congress. So, I bring that perspective to these discussions. 
I have visited that country many times. I have very close 
friends that have had to flee this oppressive narco-regime, 
which is what we all call it. And I have some family members 
that are still in Venezuela.
    So, it is something that I have been very outspoken about 
for many years, and this has been escalating for the past 15 
years. And I am glad that we are now finally having these 
conversations. I just hope that this is the beginning of 
several others that we will have, so that we can do everything 
in our power from the United States to help the people of 
Venezuela.
    So, my first question, one of the things that I have been 
focusing on is humanitarian aid. So, that is why I have been 
working on this humanitarian aid bill.
    And I wanted to ask Mr. Abrams, how much has actually been 
delivered in the humanitarian aid that we have seen, that you 
started with with the first 20 million? Do you have details on 
how much has actually already been delivered?
    Mr. Abrams. I am going, if you will permit, turn to Mr. 
Olive.
    Mr. Olive. Of that new 20 million that Secretary Pompeo 
announced, we have used that money to preposition goods 
currently in Colombia, and we are also looking at other 
neighboring countries and other parts of the Colombia. That is 
how we have spent it so far.
    In terms of getting goods in the country, we have not been 
able to do much. With the money that comes to our Latin 
American and Caribbean bureau, which was $9 million in 2017 and 
will be $15 million with 2018 funds, we have built the capacity 
of civil society organizations and tested their ability to 
distribute humanitarian assistance. But it is very small. The 
security of those partners is very much of a concern of ours. 
So, we have had to keep it more low profile at this point.
    And then, the only other assistance that is getting into 
the country is what Administrator Green and I saw when we were 
there in Cucuta in July, and that is the Venezuelans crossing 
over the border, getting the medical services or vaccines or 
food, or things that they need in Colombia, and then, going 
back in.
    But that is all we have been able to do so far. We really 
need Maduro to allow this assistance that we are building up on 
the border into the country and distributed correctly.
    Ms. Mucarsel-Powell. And are we working very closely with 
the United Nations and some of their members in providing this 
aid?
    Mr. Olive. Yes, we are in constant conversation with them. 
At the moment, they have some restrictions as well, which I 
think Special Representative Abrams can go into. But we are 
having those discussions and being transparent on what our 
plans are.
    Ms. Mucarsel-Powell. OK. Great.
    I also wanted to ask you, Mr. Abrams, Cuba, as we have 
discussed before, has clearly been a major contributor to 
Maduro's illegitimate regime. And they have been providing 
support on a number of fronts, including military personnel. I 
would like to get a little bit more detail on what you can tell 
us about the Cuban officers that are on the ground in Venezuela 
at this time. And also, why have not we sanctioned these people 
who are helping prop up Maduro and his illegitimate regime?
    Mr. Abrams. There are thousands of Cuban, let's call them, 
security and intelligence people on the ground. They form a 
kind of palace guard around Maduro. As I noted before, what it 
suggest is he does not trust Venezuelans. He does not trust the 
Venezuelan military. So, he brings in Cubans to surround him 
and provide security. They also spy on members of the 
Venezuelan military. They also police the Venezuelan military. 
So, that is what he uses them for, because he sees, I think, 
his own support among all Venezuelans, including in the 
military, crumbling.
    Now sanctioning them, you know, many of them are, if you 
will, just security officers in the ranks whose identities we 
do not even know. We have sanctioned high-level people in the 
Maduro regime. We continue to do that, civilian and military. 
And we will continue to do that. We have announced some 
expansions this week for the constituent assembly and the 
supreme court, the TSJ.
    Ms. Mucarsel-Powell. OK. I am running out of time, but I 
have one very important question. One of the discussions that I 
have heard from some colleagues here on the floor is that they 
are concerned that the sanctions that we are imposing to PDVSA 
are going to hurt the Venezuelan people. And I want to make it 
very clear that I am in full support of these sanctions to 
PDVSA.
    But I wanted to ask, what is the administration's plan, 
should these sanctions begin to affect and, indeed, exacerbate 
the humanitarian crisis for the people that are living right 
now in the country?
    Mr. Abrams. Let me just say, this horrendous humanitarian 
situation in Venezuela that we have all been talking about 
existed 2 weeks ago, before there were sanctions on PDVSA. So, 
they have not used those billions of dollars in income to help 
the Venezuelan people to buy food, to buy medicine for them. In 
that sense, we know that this funding stream that we have tried 
to cutoff does not go to the Venezuelan people.
    Mr. Olive. And, Congresswoman, that is exactly why, when 
Interim President Guaido called Administrator Green, even 
though he realized that he may need future assistance on 
electoral processes, civil society, and independent journalism, 
et cetera, he said the No. 1 need is humanitarian assistance, 
and he asked that it be prepositioned and ready to get in the 
country. We do not have that access yet, but we work daily on 
trying to get that.
    Ms. Mucarsel-Powell. Thank you so much.
    Mr. Sires. Congresswoman Shalala.
    Ms. Mucarsel-Powell. That is why my focus has been the 
humanitarian aid.
    Thank you, Chairman, for allowing me to participate.
    Ms. Shalala. Thank you, Chairman, for allowing me to 
participate as well.
    And I want to add that I absolutely support the other 
members of the south Florida delegation. It is a huge issue for 
us in south Florida. And I hope you hear in our voices 
bipartisan support for most of what you are doing.
    I have a quick question to followup on the humanitarian 
aid. And that is, aid to Colombia, because so many of the 
Venezuelans have gone over the border, and possibly to Brazil, 
but I think Colombia, in particular, is feeling the need for 
humanitarian aid.
    Mr. Olive. Yes, the U.S. Government has provided $140 
million for neighboring countries and, in particular, Colombia, 
which $97 million of that USAID has administered. Administrator 
Green is meeting tomorrow with President Duque of Colombia to 
talk precisely of recalibrating where we are, what support have 
we been able to provide, what more is needed, and have those 
kinds of discussions, because those impacts have been severe on 
neighboring countries, Brazil, Colombia, Peru, Equador, and 
Trinidad, Tobago.
    Ms. Shalala. Thank you very much.
    And, Mr. Abrams, I am going to keep asking you the same 
question about TPS. And I want to reinforce what my 
colleagues--for those of us, in your testimony you talked about 
how more than 10 percent of Venezuela's population has been 
forced to flee their country. As you know, many of them have 
come to south Florida, to Debbie's district, to my district, to 
Mario Diaz-Balart's district, to Debbie Wasserman Schultz's 
district. And we are very concerned.
    And I want to reiterate to the administration, we have 
introduced bipartisan legislation to extend TPS to Venezuelans. 
I am well aware that the administration is trying to take away 
TPS designations for so many people in my community, and I want 
to be supportive of them, but also to emphasize adding TPS for 
Venezuelans.
    Mr. Abrams. Well, thank you. This is, obviously, a very 
important question. It is one I have discussed with Secretary 
Pompeo, and I will take it back and let him know of your views.
    Ms. Shalala. Thank you.
    I yield back.
    Mr. Sires. Congresswoman Spanberger.
    Ms. Spanberger. Thank you very much.
    Thank you to our witnesses who are here today.
    And, Mr. Chairman, thank you for the opportunity today for 
asking questions.
    My colleagues have highlighted our collective and serious 
concerns about the use of military force, potential use of U.S. 
military force in Venezuela. And even in hearing caution, we 
have heard Admiral Stavridis talk about limited and well-
intentioned intervention for humanitarian purposes, saying that 
a military response would ``foment rage in the region and 
internationally''. I am in complete agreement that a military 
solution, particularly on the part of the U.S., is not answer.
    But I do have a couple of questions about what we might 
anticipate from other countries. To your knowledge, are there 
any other countries who are contemplating direct involvement, 
such as Russia or China? We have seen Russia come to the aid of 
autocratic leaders elsewhere in the world. Do you see any 
indication that Moscow may consider something similar, 
deployment of advisors or military forces to Venezuela? And I 
will open that up to all of the witnesses.
    Mr. Abrams. We did see some Russian bombers, if I recall 
correctly, fly to Venezuela, which was a Russian display of--I 
do not know--support for the regime, I guess you would say. But 
they have not put armed personnel on the ground the way they 
have in some other countries.
    Ms. Spanberger. OK. And Russia has been known to at times 
use hybrid warfare and transnational criminal organizations to 
further some of their objectives and obscure their direct role 
in doing so. Do we have any indication that this may be 
happening in Venezuela or any concerns that it may happen on 
the horizon?
    Mr. Abrams. Well, it is always a concern, and they have an 
investment in this regime literally in financial terms, but, 
obviously, in political terms as well. And they have been 
defending it. They made a very strident appearance in the 
Security Council, for example, on January 25th, when Secretary 
Pompeo was there, a lot of cold war rhetoric really. But it is 
a very interesting question as to how far they would actually 
go. And we ask ourselves that question all the time.
    Ms. Spanberger. Any additional? OK. And then, another 
question on this same line of questioning. To your knowledge, 
what is the role of the colectivos or the armed civilian 
militias? Are they receiving, to your knowledge, any external 
support, training, or weapons? And if so, do you know where 
that is coming from or how the U.S. and our partners in the 
region might be able to prevent such support and use of such 
support?
    Mr. Abrams. I am not aware of foreign support for the 
colectivos. It is clear that they work for the regime, and the 
regime in some cases has armed them. And they are kind of an 
auxiliary to the normal, legitimate, if you will, security 
forces. But the regime has the means, unfortunately, to 
organize and arm them. I have not seen evidence of a 
relationship between the colectivos and foreign powers.
    Ms. Spanberger. And for Ms. Oudkirk I have a question about 
the sanctions and potential impact of the sanctions. We are 
well aware of the fact that for many years Venezuela has been 
able to invest heavily and in some cases buy the loyalty of 
Caribbean States through the sale of its crude oil. And some of 
these Petrocaribe States have supported actions of the 
Organization of American States to put diplomatic pressure on 
Maduro, which has now led to him threatening economic 
retaliation.
    With concerns of the potential for destabilization or 
humanitarian crises in other parts of Latin America, my 
question is, do you expect any economic reverberations from 
Venezuela? And what is the administration doing to reduce the 
risk of economic damage potentially to these countries, many of 
whom, like Jamaica, for example, have also borrowed heavily 
from Venezuela in the past?
    Ms. Oudkirk. Thank you very much for your question, 
Congresswoman Spanberger.
    So, one of the things that we did to mitigate ancillary 
consequences on neighboring jurisdictions was OFAC issued 
General License 11, which gave a 60-day period to wind down 
U.S. person involvement in third-country interactions with 
PDVSA. So, this was designed to sort of smooth out the removal 
from the transaction chain of U.S. persons, so both individuals 
and companies. And we are looking on a sort of country-by-
country, jurisdiction-by-jurisdiction basis at the involvement 
of PDVSA in these various basically small countries and 
islands, and figuring out what it is that needs to be done 
during that 60-day period to ensure that the focus of this 
sanction's impact remains on PDVSA, not on these small markets.
    Ms. Spanberger. OK. Thank you. I yield back.
    Mr. Sires. Thank you.
    I want to thank the witnesses for being here and for your 
patience, and the members who attended today's hearing.
    With that, the hearing is adjourned.
    [Whereupon, at 2:35 p.m., the committee was adjourned.]

                                APPENDIX
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
